<html>
<title> - GANGS, FRAUD AND SEXUAL PREDATORS: STRUGGLING WITH THE CONSEQUENCES OF ILLEGAL IMMIGRATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
GANGS, FRAUD AND SEXUAL PREDATORS: STRUGGLING WITH THE CONSEQUENCES OF 
                          ILLEGAL IMMIGRATION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2006

                               __________

                           Serial No. 109-189

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform







                    U.S. GOVERNMENT PRINTING OFFICE

30-529 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                 Larry Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
               Dennis Kilcoyne, Professional Staff Member
                           Malia Holst, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 12, 2006...................................     1
Statement of:
    Folwell, Dale, a State representative, State of North 
      Carolina; Thomas J. Keith, district attorney, 21st 
      Prosecutorial District, North Carolina; Debra Conrad-
      Shrader, vice-chair, Forsyth Bounty Board of Commissioners; 
      and Brandon Holland, Forsyth County Director, Zero Armed 
      Perpetrators [ZAP] Program.................................    35
        Conrad-Shrader, Debra....................................    50
        Folwell, Dale............................................    35
        Holland, Brandon.........................................    54
        Keith, Thomas J..........................................    38
    Jordan, Jeffrey S., Special Agent-in-Charge, U.S. Immigration 
      and Customs Enforcement, U.S. Department of Homeland 
      Security, Charlotte, NC....................................    14
Letters, statements, etc., submitted for the record by:
    Conrad-Shrader, Debra, vice-chair, Forsyth Bounty Board of 
      Commissioners, prepared statement of.......................    52
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina, prepared statement of.............     9
    Holland, Brandon, Forsyth County Director, Zero Armed 
      Perpetrators [ZAP] Program, prepared statement of..........    57
    Jordan, Jeffrey S., Special Agent-in-Charge, U.S. Immigration 
      and Customs Enforcement, U.S. Department of Homeland 
      Security, Charlotte, NC, prepared statement of.............    17
    Keith, Thomas J., district attorney, 21st Prosecutorial 
      District, North Carolina, prepared statement of............    42
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4


GANGS, FRAUD AND SEXUAL PREDATORS: STRUGGLING WITH THE CONSEQUENCES OF 
                          ILLEGAL IMMIGRATION

                              ----------                              


                       WEDNESDAY, APRIL 12, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                 Winston-Salem, NC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
the County Commissioners Meeting Room, Forsyth County 
Government Center, 201 North Chestnut Street, Winston-Salem, 
NC, Hon. Mark E. Souder (chairman of the subcommittee) 
presiding.
    Present: Representatives Souder and Foxx.
    Staff present: Dennis Kilcoyne, professional staff member 
and counsel; Scott Springer, congressional fellow; and Malia 
Holst, clerk.
    Mr. Souder. The subcommittee will come to order.
    Good morning and thank you all for coming. Today, our 
subcommittee will address some of the issues surrounding the 
debate on illegal immigration, which you all know is a very 
contentious topic. Congresswoman Foxx wanted to make sure that 
I pointed out that we had settled on this topic some time ago, 
we did not realize all the stories over the last couple of days 
were going to focus on immigration. This has been a continuing 
subject. Our committee has jurisdiction over all judiciary 
issues as well as all drug issues. We do not have jurisdiction 
over work force issues, so we are not going to be focusing on 
work force questions today, because it is not in the domain of 
our subcommittee.
    I first want to thank your Congresswoman Virginia Foxx, who 
is a member of this subcommittee and has been an energetic 
advocate for greater border security and enforcement. I also 
want to thank the witnesses who are here today to give us their 
input. I will be introducing them shortly.
    The House of Representatives has already passed legislation 
aimed at halting the flow of illegal aliens across the border 
and, as we know, the Senate just last week came close to 
passing its own immigration reform bill. The Senate's failure 
demonstrates the tremendous polarization on this issue. The 
great majority of American people feel strongly that the 
Federal Government is failing in its responsibilities to defend 
our borders and the growing anger and frustration is palpable. 
On the other hand, immigrants--many undoubtedly here 
illegally--are taking to the streets in large numbers, waving 
the flags of foreign nations and demanding that the Government 
essentially continue to be passive.
    This debate raises questions which are difficult, but which 
we must fearlessly confront. Who are we as a people? Is it fair 
for taxpayers and citizens in general, for us to massively 
subsidize millions of illegal immigrants in our midst? Should 
we continue to shrug our shoulders and discourage any talk of 
the criminal elements among these illegal immigrants, lest we 
be accused of being bigots? Or should we courageously and 
responsibly confront these problems head-on?
    Since 2001, the illegal immigrant population in this 
country has been swelling by an estimated 700,000 annually. 
After crossing the border, most illegal immigrants undoubtedly 
would prefer to quietly find work and earn money--I would guess 
as many as 90 percent--rather than participate in any 
activity--maybe even as high as 95 percent--rather than 
participate in any activity that might draw attention of law 
enforcement. However, some may feel no such restraint, as many 
Federal, State and local police agencies will attest.
    It is in cities like Winston-Salem, as well as smaller 
communities, that the presence of criminals who have illegally 
entered the country is most keenly felt. In many cases, such 
elements come together to form classic street gangs, staking 
out territories and dedicating themselves to controlling the 
local drug trade. In most cases, the drug trade is the engine 
that drives other criminal activity, particularly property 
crimes and robberies, as addicts who are unable to keep steady 
employment choose a life of petty crime to finance their drug 
addiction.
    Recognizing the expanding threat from Hispanic street 
gangs, as well as the fact that they are largely composed of 
illegal aliens, the U.S. Immigrations and Customs Enforcement 
[ICE] launched Operation Community Shield in February 2005 as a 
comprehensive initiative to disrupt and dismantle 
transnational, violent street gangs. We will be hearing more 
about this vital project, which promises to be very helpful to 
State and local authorities in controlling and shutting down 
criminal gang activity by illegal aliens.
    For local law enforcement in places like North Carolina, 
such help is not coming a moment too soon. Local police lack 
the authority to hold suspects on immigration violations and 
have had to release them when lacking probable cause for other 
crimes. With Operation Community Shield in place, they now 
provide ICE with intelligence on gang organization and 
leadership learned through their investigation of general 
crime, which enables ICE to arrest, prosecute and/or deport 
individual gang members. Since the Operation was launched, ICE 
agents have arrested over 160 such gang members in North 
Carolina.
    In the same vein, ICE's Operation Predator, which targets 
rapists, pedophiles, human traffickers and those who traffic in 
pornographic images of children, has been focused on foreign 
national sex offenders, some of whom have, unfortunately, come 
to North Carolina. Sexual predators who are here illegally 
present different challenges to local law enforcement, and ICE 
agents bring valuable investigative tools and authority to 
their efforts to stop foreign sex predators from victimizing 
their children.
    Additionally, illegal immigration is straining Government 
at all levels throughout the country as schools, hospitals and 
welfare agencies, as well as law enforcement, are pressed to 
respond to the needs of new populations that are consuming far 
more in tax revenue than they pay.
    Few States have had to struggle with this burden as much as 
North Carolina. Its illegal alien population is approaching 
half a million, and it had the highest Hispanic population 
growth of any State in the 1990's. During the 1990's, the 
immigrant population of Forsyth County exploded by 515 percent, 
meaning that two-thirds of the county's foreign-born population 
had entered in just 10 years. The State government estimates 
that each illegal Hispanic immigrant is saddling it with a net 
cost of $102 annually. Medicaid costs due to illegal 
immigration have doubled in 5 years. The State is spending over 
$200 million annually to educate the children of illegal 
immigrants, a more than 2,000 percent increase in 10 years. 
Across the State, the criminal justice system is disrupted as 
courts and law enforcement struggle, particularly in rural 
counties, to find translators to assist in investigations and 
court proceedings for Spanish-speaking defendants. Too many 
stresses and strains on State and local Government are 
accelerating at once, and there is clearly a need for 
government at all levels to decisively reverse these trends in 
some fashion.
    This hearing will examine these problems, probe the 
response of Federal, State and local Governments and solicit 
solutions.
    For our first panel, we are joined by Mr. Jeffrey S. 
Jordan, Special Agent of the U.S. Immigrations and Customs 
Enforcement [ICE].
    For the second panel, we are joined by Thomas J. Keith, 
district attorney for the 21st Prosecutorial District; Mr. Dale 
Folwell, currently your State representative and formerly of 
the Forsyth County School Board; Ms. Debra Conrad-Shrader, 
vice-chairman of the Forsyth County Board of Commissioners; and 
Ms. Barbara Holland, director of the Zero Armed Perpetrators 
Program of Forsyth County.
    We thank all of you for joining us today and we look 
forward to your testimony.
    I want to repeat again, this is not precisely about the 
immigration bill. We are going to have differences. I voted 
against the immigration bill, and did not believe that an 
interior enforcement provision without work permit was 
workable; however, I drafted many amendments through the 
Homeland Security Committee because I believe strongly in 
stronger border enforcement and we need to work out the 
internal. This is to talk about the practical implications and 
how we have to deal with some of the side consequences of the 
illegal immigration. How we handle the question broader is not 
in the purview of this hearing.
    I will yield to Congresswoman Foxx.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] 30529.001
    
    [GRAPHIC] [TIFF OMITTED] 30529.002
    
    Ms. Foxx. Thank you, Chairman Souder. I really appreciate 
you coming to Forsyth County and to the Fifth District of North 
Carolina to hold this hearing. As you said, we have been 
planning this for many weeks and did not realize the timeliness 
in terms of what is happening nationally. But we are glad to 
have everyone here who is concerned about the issue.
    During the decade I served as a member of the North 
Carolina State Legislature and during my first 15 months in the 
U.S. Congress, I have found that few issues trouble my 
constituency as much as illegal immigration, and for good 
reason.
    There truly is no issue more important to our Nation than 
the safety and security of our constituents and the American 
way of life. And border security is the starting point for 
ensuring that security. If we do not keep Americans safe at 
home, then the dozens of other issues we debate in Congress 
simply will not matter.
    The terrorist attacks on our homeland highlighted the 
potential disastrous effects of porous borders and the need to 
bolster border security, but the problem of illegal immigration 
also has additional far-reaching dangerous effects. Ultimately 
it punishes all who follow the laws of the United States.
    Immigration affects virtually every aspect of life in 
America. With millions of legal and illegal immigrants settling 
in the United States each year, a level higher than any other 
time during our Nation's history, illegal immigration has a 
major negative impact on education, health care, Social 
Security, taxes, employment, wages, the environment, crime and 
countless other areas of American life.
    I sympathize with those who desperately wish to live the 
American dream here on American soil. I understand their desire 
for liberty, free markets, property rights and guaranteed 
freedoms. The demand for access to America is a resounding 
testament to the greatness of our Nation. However, immigration 
laws exist to provide the necessary steps for safe and legal 
entry into this country.
    Illegal immigration must be stopped, but we cannot and 
should not close our doors to those who wish to enter the 
country legally. We must achieve our efforts to achieve closed 
borders with open, guarded doors. We have an immigration 
process in place that simply must be followed. It also must be 
strictly enforced, much more rigorously than is being enforced 
now. We are a Nation of immigrants, but we are first a Nation 
of laws.
    Expedited identification of illegal immigrants, enhanced 
and increased border patrol and stiff penalties for employers 
and businesses that knowingly employ illegals are all necessary 
to secure our borders and successfully combat illegal 
immigration. Our border patrol and law enforcement agents 
should be empowered to crack down on illegal immigration and 
protect our borders.
    My constituents and local law enforcement officers all echo 
the same concern, that we must move from our unfortunate 
current policy of inaction in relationship to dealing with 
illegal immigrants, to one that ensure there are consequences 
for illegal behavior. They are especially frustrated that we do 
not swiftly deport illegal immigrants, especially those who 
commit other crimes. As Members of Congress, we must be 
receptive to their concerns and cannot lose sight of this major 
problem. We must do all we can to establish and enforce a 
thorough and fastidious system for deterring, identifying and 
dealing with illegal immigrants. Illegal immigration is a 
multi-faceted problem that will require a multi-faceted 
solution.
    A major part of that solution must include educating the 
public about the real costs and consequences to America of 
illegal immigration. That is why we are here today. I have long 
fought for tighter immigration controls, reflecting the 
sentiments of my constituents. The testimony these witnesses 
are about to offer is necessary to shed light on just how 
serious the problem truly is. Our counties and communities, now 
saturated will illegal immigrants, are spending billions of 
dollars on public health and education, law enforcement and 
social services for people who are not even legally allowed to 
be here. Every dollar spent on an illegal immigrant is a dollar 
that was diverted away from a law-abiding, tax-paying citizen.
    The burden of dealing with illegal immigration largely 
falls on the shoulders of the officials who will testify today. 
The responsibility for solving the problem of illegal 
immigration at a national level largely falls on the shoulders 
of the U.S. Congress. The purpose of this investigatory and 
oversight hearing is to expose and address the problem, educate 
the committee and work toward crafting the most appropriate 
solutions.
    Chairman Souder and I held a field hearing similar to this 
one in Caldwell County yesterday to discuss the horrible 
problem of methamphetamine use in North Carolina's mountain 
counties. I have been working with local law enforcement for 
many years to eradicate meth production and we have had 
dramatic success. However, since we have driven local meth labs 
out of the area, the illicit drug is now being smuggled into 
North Carolina from the Mexican border. In fact, over 80 
percent of meth in North Carolina now comes from Mexican 
sources. This leads to dramatic increases in violent crime and 
wreaks havoc on our law enforcement personnel. Just when we had 
nearly eliminated the supply portion of the supply and demand 
equation relating to the meth crisis, a brand new supply 
presented itself with crystal meth being smuggled into our 
communities from Mexico.
    With drugs comes crime--violent crime. And increased 
violent crime poses a very dangerous problem for our 
communities, not only directly but also indirectly as police 
forces normally preventing crime become diluted in responding 
to crime. Several of the mountain counties I represent are 
unfortunate examples of such a problem. These counties 
generally enjoy a very low crime rate. However, in recent 
years, they have had several methamphetamine related homicides 
and violent robberies. This drug is wreaking havoc in our local 
neighborhoods and is endangering the lives of many, including 
our innocent children and our brave law enforcement officials.
    Illegal immigration is consistently the No. 1 topic that my 
constituents write about and call my office with their 
concerns. It is also the No. 1 problem expressed to me by many 
of the local officials I represent, some of whom you will hear 
from today. Politics must be set aside so that we can 
concretely identify the severity of the problem and begin to 
craft solutions. The very freedom that attracts immigrants to 
our great Nation will erode if we do not take action to enforce 
and protect our laws. I look forward to constructive dialog, 
thank the chairman and our panelists for joining me today.
    [The prepared statement of Hon. Virginia Foxx follows:]
    [GRAPHIC] [TIFF OMITTED] 30529.003
    
    [GRAPHIC] [TIFF OMITTED] 30529.004
    
    [GRAPHIC] [TIFF OMITTED] 30529.005
    
    [GRAPHIC] [TIFF OMITTED] 30529.006
    
    Mr. Souder. Before we hear testimony, I need to take care 
of some procedural matters.
    First, I ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record and that any answers to written questions 
provided by the witnesses also be included in the record. 
Without objection, it is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents and other materials referred to by Members and 
witnesses may be included in the hearing record, that all the 
Members be permitted to revise and extend their remarks. And 
without objection, it is so ordered.
    Before I proceed, let me explain briefly what our committee 
does. A lot of people are not familiar with the Government 
Reform Committee. In the Constitution, basically the first and 
foremost thing that was given to the House of Representatives 
was tax and revenue questions. The Senate was given--they have 
to confirm Supreme Court Justices, all treaties and foreign 
policy. So foreign policy starts in the Senate, the House does 
some of that, but we control the purse strings. Because we 
control the purse strings, the second group of committees 
formed in Congress were oversight committees, Government 
Reform. Then after time, we created authorizing committees.
    So if you look at the different issues, say take education, 
No Child Left Behind would start in an authorizing committee, 
then move to an appropriating committee to fund what the 
authorizing set as upper limits and the policy. Then the 
Government Reform Committee, in this case, ours has criminal 
justice, drug policy and human resources, so we also have 
oversight over the Education Department. We would then review 
to see that No Child Left Behind is being implemented in the 
way that the government intended. That leads us a lot of times 
in doing more controversial oversight in looking at difficult 
questions.
    For example, much of the time during the Clinton 
administration, we were looking at the travel office, at 
Whitewater, at China, at gambling, at all sorts of questionable 
uses of money in addition to the regular oversight we did over 
drug policy and all the different subcommittees. At the full 
committee, we would handle major issues. Waco, for example, we 
did a lot of oversight on that.
    Probably the best known thing we have done in this Congress 
was the steroids policy in baseball, Mark McGwire, when he said 
that he did not want to talk about the past in front of our 
committee, made a lot of news. And of course, that is what the 
Government Reform Committee does, we talk about the past, so we 
can learn about what legislation needs to be done and figure 
out how to address the problems. So that is a little history of 
our committee.
    Now as part of that, because we are an oversight committee, 
we swear in all of our witnesses. We have only had a few cases 
of prosecution for perjury, so hopefully we will not have any 
today. But, for example, that is why Mark McGwire spent 3 days 
trying to duck a subpoena from the committee, moved actually to 
two different States. Finally the subpoena was served on him 
and then the reason he did not want to talk about the past is 
because his testimony could have in fact made him liable in any 
stadium in America if he had said he had used illegal steroids, 
he could have been liable for prosecution in any stadium in 
America.
    Now I did not mean to intimidate any witnesses, we have 
never had any cases in any field hearing, but I wanted to 
explain why I have to do the swearing in of each witness.
    So our first panel, as is the tradition of this committee, 
as a Federal oversight committee, the first panel, if we have 
Federal branch witnesses, are always on the first panel, then 
other witnesses in the proceeding panels. So if Mr. Jeffrey 
Jordan could come forward and I will administer the oath.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative.
    We have a little clock here that is 5 minutes for 
witnesses. The yellow light comes on at 4; as I said yesterday 
at the hearing, since it is a field hearing, we will do this 
with a little bit of a Southern drawl, and if you go over your 
5 minutes, we are not going to have big concerns here.
    Thank you for coming today, Mr. Jordan, and we look forward 
to your testimony.

 STATEMENT OF JEFFREY S. JORDAN, SPECIAL AGENT-IN-CHARGE, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                HOMELAND SECURITY, CHARLOTTE, NC

    Mr. Jordan. Thank you. Mr. Chairman and members of the 
subcommittee, thank you for providing me the opportunity to 
speak with you today about U.S. Immigration and Customs 
Enforcement's efforts to combat illegal immigration in the 
State of North Carolina.
    ICE is the largest investigative agency within the 
Department of Homeland Security. Working overseas, along our 
borders and throughout the Nation's interior, ICE agents and 
officers are demonstrating that the newly emerged customs and 
immigration authorities constitute an effective tool against 
those who attempt or succeed in penetrating our borders.
    ICE continues to initiate enforcement programs to identify 
and arrest those who pose a threat to our communities. Examples 
of such programs include Operation Community Shield and 
Operation Predator. Operation Community Shield identifies 
violent transnational gang members that are subject to arrest, 
prosecution and removal from the United States. Operation 
Predator focuses on protecting our Nation's children from 
sexual predators. This includes identifying and arresting 
aliens who have been convicted of sex offenses against 
children. Transnational gang members and child predators often 
engage in immigration identity and benefit fraud to remain or 
work in the United States or to conceal their true identities. 
ICE uses its authorities and resources on organizations and 
individuals who fraudulently obtain immigration benefits to 
further their illegal activities.
    In the last decade, the United States has experienced a 
dramatic increase in the number and size of transnational 
street gangs such as Mara Salvatrucha, commonly known as MS-13, 
one of the most violent gangs of its kind. These gangs have 
significant foreign-born membership and are frequently involved 
in human and contraband smuggling, immigration violations and 
other crimes with nexus to the border. Like many street gangs, 
they also have a propensity toward violence. Their members 
commit such crimes as robbery, extortion, assault, rape and 
murder.
    An example of this violence occurred just a few miles from 
this hearing. On February 28, 2006, ICE agents, working with 
the Fuquay-Varina, NC Police Department, arrested Jose Carlos 
Peralta-Morales, a Surenos gang member who was observed beating 
an individual on the head with a baseball bat in a Wal-Mart 
store. An investigation revealed that the suspect had been 
previously deported in May 2005. Further investigation revealed 
that Peralta-Morales had been convicted of robbery and 
accessory after-the-fact in connection with an incident in 
which gang members robbed a returning Iraqi war veteran at 
gunpoint upon departing a local restaurant with his girlfriend. 
In addition to State assault charges, Peralta-Morales is facing 
Federal criminal prosecution for illegally re-entering the 
United States.
    Operation Community Shield has resulted in the arrest of 
over 2,400 gang members. Of those arrested, 52 have been 
identified as leaders of gangs. More than half of those 
arrested have violent criminal histories with arrests and 
convictions for crimes such as robbery, assault, rape and 
murder. In North Carolina alone, ICE agents have arrested over 
160 violent street gang members in the Charlotte, Raleigh and 
Winston-Salem metropolitan areas.
    ICE's efforts to protect public safety are not limited to 
gang enforcement. Through Operation Predator, ICE aggressively 
pursues those who prey on our most vulnerable in society, our 
children. In addition to our efforts in combatting the 
distribution and transfer of child pornography via the 
Internet, Operation Predator identifies and arrests criminal 
aliens that have been convicted of sex crimes against children 
and are subject to removal proceedings. These sex offenders 
pose a significant threat to our communities while they remain 
illegally in the United States to prey on innocent children. 
Operation Predator vigorously investigates all forms of child 
exploitation such as the smuggling of children into the country 
for sexual exploitation or prostitution or the travel of U.S. 
citizens or lawful permanent residents to foreign countries to 
engage in sex tourism with children. These individuals often 
return to the United States with photographs and videos of 
their criminal activity.
    Operation Predator has proven to be a tremendous success. 
Since the inception of Operation Predator, ICE has arrested 
over 7,600 child predators. In North Carolina, ICE agents have 
arrested 100 suspects as part of this operation. Of those 
arrested in North Carolina, 79 are non-U.S. citizens and 62 of 
these have since been deported from the United States. 
Operation Predator will continue to be a priority program for 
ICE.
    Many of those apprehended by ICE as part of Operation 
Community Shield, Operation Predator or other enforcement 
efforts procured their immigration status through fraudulent 
means. Immigration fraud exposes the United States to criminals 
and terrorists who gain entry into this country to carry out 
their criminal and dangerous agendas.
    Examples of how immigration benefits can be abused by the 
criminal element can be found in investigations conducted by 
ICE here in North Carolina. For instance, ICE investigated a 
Charlotte, NC immigration attorney who filed fraudulent 
applications and petitions to assist her clients in obtaining 
immigration benefits. The immigration attorney advised her 
clients, who included students from Nepal, to circumvent legal 
immigration procedures by arranging marriages to U.S. citizens. 
The foreign students admitted to the United States to pursue 
various educational programs were told to marry a U.S. citizen, 
often a fellow student in need of additional cash, to remain in 
the United States legally. Some of the foreign students had 
previously failed in their attempt to obtain asylum. The 
attorney did this without regard for her clients' intentions or 
criminal records. In March 2005, she pled guilty to conspiracy 
to defraud the U.S. Government and was sentenced to Federal 
imprisonment.
    ICE may initiate removal proceedings for those aliens who 
are encountered and arrested for immigration violations during 
Operation Community Shield or Operation Predator. The alien 
would be served with a notice to appear or other charging 
document that would contain information on the charges being 
filed against him or her. The alien would be scheduled for 
removal hearing before an immigration judge who would 
ultimately determine whether or not the alien would remain in 
the United States. Removal hearings for North Carolina are 
generally conducted at an immigration court in Atlanta. ICE 
generally details aliens from North Carolina at county 
detention facilities under the intergovernmental service 
agreements. However, most aliens are transferred to detention 
facilities in Georgia. Should ICE determine that an alien is 
not a flight risk or a threat to public safety, the alien may 
be released pending the immigration hearing. ICE carries out 
the final decision of the Immigration Court, whether that is an 
order of removal or a grant of discretionary relief.
    I want to thank the distinguished members of this committee 
for the opportunity to speak before you today. I look forward 
to answering any of your questions.
    [The prepared statement of Mr. Jordan follows:]
    [GRAPHIC] [TIFF OMITTED] 30529.007
    
    [GRAPHIC] [TIFF OMITTED] 30529.008
    
    [GRAPHIC] [TIFF OMITTED] 30529.009
    
    [GRAPHIC] [TIFF OMITTED] 30529.010
    
    [GRAPHIC] [TIFF OMITTED] 30529.011
    
    [GRAPHIC] [TIFF OMITTED] 30529.012
    
    Mr. Souder. Thank you very much.
    As Congresswoman Foxx mentioned, we are increasingly seeing 
the interconnection as we move to even higher percentage of 
crystal meth and the meth focus moves off of the mom-and-pop 
gangs, mom-and-pop, Nazi labs to the gang organizations and 
other distribution networks. It will be interesting as we start 
to pursue this, because we have not, as a subcommittee, done 
much with gangs certainly since I have been chairman. I had 
worked with this in my previous life to some degree, when I was 
a staffer for Senator and Congressman Coats.
    So I want to ask a couple of preliminary questions about 
the gangs themselves. Is gang a term that is used up to a 
certain age and then it becomes a network? In other words, 
historically the Bloods and the Crips have been used. At what 
point, if they are 50 years old, are they still considered a 
gang? At what point do they become a narcotics distribution 
organization, a sex distribution organization?
    Mr. Jordan. I believe that gang could be used for older 
individuals as well. I lived in southern California at the 
time, and we encountered gang members that were 32 years of 
age. So a gang, the term gang is defined as a collection of 
individuals. I think older--I guess you could in fact call a 
gang a network of criminals, because in fact that is what it 
most likely is.
    Mr. Souder. I know I am asking, to some degree, national 
questions and you, like most people in Federal agencies, have 
been in multiple locations, but your experience is here. If the 
ICE headquarters wants to add anything additional or you want 
to add anything additional, feel free to do so, but I am trying 
to get a range, because we often hear of family organizations 
distributing narcotics. In trying to discuss who the coyotes 
are and the criminal organizations that move individuals, in 
your office, how do you determine what is a gang, what is a 
drug criminal organization, what is another type of criminal 
organization? At what point, does a gang designation differ 
from your other designations of criminal organizations?
    Mr. Jordan. Well, in North Carolina, there are five top 
gangs in North Carolina, the top being Mara Salvatrucha, MS-13, 
and Surenos.
    Mr. Souder. What I am trying to get at is would you have 
other drug distribution networks that you would refer to as not 
gangs?
    Mr. Jordan. Yes. Yes, if they are not members of this 
identified gang, if we have no evidence that they are in fact 
members of this identified gang, they are in fact drug 
networks. Do we have drug importation networks in North 
Carolina? Absolutely.
    Mr. Souder. And sometimes they are referred to as families 
or whatever. At what point is it a family rather than a gang? 
The marks are different, there is not an initiation rite?
    Mr. Jordan. I am not familiar with those specifics, you 
know, determining or differentiating factors in a family. Now 
drug smuggling organizations, specifically Mexican drug 
smuggling organizations, are tight-knit networks and we have 
seen in North Carolina, they typically do not trust others 
outside their domain, their family members, their extended 
family, so the trust level is held within there. So we say it 
is within the family, that is what we define as the family, the 
extended family. I am not familiar with the differentiation in 
terms between a family vice a gang.
    Mr. Souder. If there was an individual who started 
smuggling young girls for prostitution and developed a network, 
would that individual--how would he become defined as a gang as 
opposed to somebody who was employing people on the line, being 
hooked together as a network?
    I went through this report that showed--in other words, I 
understand gang symbols, gang colors, have worked with all 
that. What I am trying to figure out is how do we determine 
what the other groups are called, because gangs, generally 
speaking, while I think some gang members may age, I do not 
think--I wondered whether age is part of that or the method of 
distribution, they do not have a tattoo on them.
    Mr. Jordan. We call those criminal organizations vice 
gangs. There are those members that are in those traditionally 
recognized gangs, whether it be predominantly U.S. citizens or 
foreign-born nationals. And then there are criminal 
organizations, criminal networks that operate within North 
Carolina.
    Mr. Souder. Where this becomes relevant for the Federal 
Government, as you know, the President has proposed and we have 
been implementing new dollars for gangs, which really is just 
redistributing dollars inside the Justice Department 
predominantly to focus on gangs. I am trying to figure out 
where those dollars then move from. In other words, if we say, 
does this lead them at the field level to people designating 
other organizations as gangs that previously were not called 
gangs. Does it mean that--what is the practical impact on the 
field when we say we are going to give money for gangs but not 
for criminal organizations? You know, how do we sort out what 
that actually means when they come to us? Because we know what 
we want to stop, we want to stop criminal behavior. And it 
seems to me, quite frankly, as somebody who has been involved 
in government for some time now, that gangs almost are a term 
that goes with popularity around funding streams and whether 
somebody wants to promote a new program.
    As an oversight committee, part of our challenge before we 
plunge into the details of this is to figure out precisely what 
we are talking about. We know what certain earmarks of a gang 
are when it is clear cut. The question is at what point do we 
get to that?
    Mr. Jordan. Well, gangs, they are associated by the 
ritualistic--you know, they basically have the tattoos and all 
the sort of inner workings of this gang, so there is somewhat 
of a secretive society. They have the hand signals, the 
tattoos, all that kind of stuff. They have their own set of 
rules of behavior. Criminal organizations do not have that. 
Their commonality is just that, the criminal behavior. The 
commonality in gangs is their brotherhood thinking, mentality 
of the gang signs, of that brotherhood type organization.
    Mr. Souder. Have you seen--do gangs tend to be more urban?
    Mr. Jordan. In North Carolina, they are urban, but they 
have suburban tentacles as well. They tend to do their crimes 
in urban environments, but it is not uncommon for them to 
reside in the suburban and outreaching areas.
    Mr. Souder. And do gangs--I know the Bloods and Crips did 
because one of the fundamental things is they were based out of 
L.A., and then to try to break up the prison population, we 
thought it was a bright idea to scatter them in the midwest and 
other places into prisons, and then they recruited into other 
cities and spread the Bloods and Crips into Chicago and Kansas 
City and through the midwest. Do gangs tend to recruit more in 
the prisons and is that how some of the extension goes into the 
tentacles out of the urban area?
    Mr. Jordan. I do not have any direct knowledge on the 
recruitment procedures inside detention facilities, but outside 
the detention facilities, gangs fill a void that certain people 
are looking for, that sense of commitment, that sense of 
involvement, that sense of belonging. And they use that as a 
great resource, a great tool in their recruitment procedures. 
They bring them on in and now they feel welcome, now they feel 
attached to some organization. Basically a void that the 
parents do not fill. The gangs here in North Carolina use that 
extensively as a tool, a sense of belonging is a major 
recruitment tool.
    Mr. Souder. Now M-13 is basically Salvadoran. Is it 
Salvadoran when it hits here or are they recruiting into the 
Mexican population as well?
    Mr. Jordan. MS-13 gangs, by the time it gets to North 
Carolina, most of them are not Central American, most of them 
are Mexican, of Mexican nationality. So that detachment 
detaches, it just becomes more of a--and we have not found any 
direct links from the leaders right here directly down to a 
Central American organization, so by the time they get it, it 
has been spun off so much that they are in fact, the majority 
of MS-13 gang members are Mexican nationals.
    Mr. Souder. So MS-13, while they may have a national name, 
do you sense that they report in to a national system or are 
they regionally independent?
    Mr. Jordan. I do not sense that--I do not get that sense 
through our investigations, that they report to a national, one 
international leader akin to a drug smuggling or a drug lord or 
something. No, I do not get that sense from the folks that we 
encounter here in North Carolina.
    Mr. Souder. Have you seen any Guatemalan gangs here?
    Mr. Jordan. I have some data on----
    Mr. Souder. One of the things that happens is a lot of 
people call people Mexican and they are not necessarily 
Mexican. And I just wondered in this area, in North Carolina, 
whether you have much Central American or even a lot from 
southern Mexico, which is kind of a different population 
cluster.
    Mr. Jordan. Our ICE agents do a real good job of 
determining their nationality, their country of origin. We have 
the percentages here. In our gang enforcement efforts so far in 
North Carolina, we have arrested and identified four 
Guatemalans. Again, the majority being Mexican nationals.
    Mr. Souder. And as far as border security question, even 
the Central Americans are coming across the border. Now when 
you deport someone, at San Ysidro, which is of course the main, 
No. 1 crossing, the last time I was there, they had just 
apprehended some Brazilians who were hiding in the top of the 
van, who, other than being tremendously disguised were not 
particularly subtle, they had Brazilian shirts on and 
everything else, and did not seem particularly upset about 
being apprehended. My understanding was that in the case of 
OTMs, other than Mexicans, because a lot of people want to send 
everybody back to Mexico, but if they are not from Mexico, 
there is no reason that Mexico wants them either. In this case, 
we detailed them and my understanding is that, hopefully, up 
until recently we were releasing them on their own 
recognizance, which unless they are pretty stupid, they do not 
show back up again. But we started to detain more and ICE and 
the Department of Homeland Security has reacted to some degree 
with funding to the pressure on OTMs.
    But if you get somebody who has a criminal violation, who 
is an OTM or Mexican--let us do Mexicans and OTMs, but I am 
going to pursue to case of Brazil--my understanding is they get 
shipped back to Brazil at our expense.
    Mr. Jordan. Well, first, if they are criminal aliens, first 
and foremost, we attempt to prosecute them to the fullest 
extent of the law that we can in the United States, whether it 
be through the Federal or State or local jurisdictions. Having 
none of those resources or they are not amenable to those 
prosecutions, they are in fact returned--they are incarcerated 
and they are returned to their country, their native country. 
Now they stay incarcerated until we get the travel documents 
and all the other clearances that we need to remove them, but 
they are in fact returned to their country.
    Mr. Souder. OK. So given my question was so convoluted, let 
me break it down some. So if you detained a Mexican or OTM, 
other than Mexican, here in Charlotte and the crime turns out 
to either not be a crime other than illegal immigration or one 
that you cannot prosecute, you detain them?
    Mr. Jordan. It depends on if they are in fact--they are all 
processed, it is not we just release them. They are all 
processed and if they represent a public safety threat or a 
security threat, they are in fact detained. Others, the Mexican 
nationals--the OTMs are in fact detained. The Mexican 
nationals, if in fact they are amenable to a bond, then we do 
in fact set a bond for those individuals. They can stay in 
custody to that point until they post that bond and----
    Mr. Souder. They do stay in custody until they post a bond?
    Mr. Jordan. Yes, until they post a bond. It is important to 
note that a bond is different than a bond in the criminal 
setting because a $5,000 bond does not mean that they can go 
find a bail bondsman and post the 10 percent deal. $5,000 is 
$5,000, they have to come up with that. So when you look at 
immigration bonds, they tend to be lower because it is a full 
thing.
    Mr. Souder. How many of them show back up, what percent 
success rate do you have on the bonds?
    Mr. Jordan. I do not have the exact figures.
    Mr. Souder. Roughly a third, half, two-thirds?
    Mr. Jordan. That show back up?
    Mr. Souder. Yeah.
    Mr. Jordan. The figures that I have read in the past are 
about 10 percent that show back up.
    Mr. Souder. There is not a big bail bondsman business here? 
[Laughter.]
    Mr. Jordan. To be honest with you, the family members and 
others gather the currency and cashier's checks and post those 
kind of bonds for those folks.
    Mr. Souder. Do you have any suggestions of how that--having 
been in the field in multiple places, how that bond system 
might be made a little more tight? In other words, not letting 
it go through individuals, but have a responsible guarantee who 
you know is going to be there who you can then prosecute or if 
people put up money and they jump the bond, they could be 
prosecuted? What suggestions would you have to make it so we 
have a better than 10 percent show-up rate?
    Mr. Jordan. I think the bond system is not the issue, 
because their will is not to show up. So a bond of $20,000 vice 
staying in the United States, I think they in fact would 
sacrifice that as well. I believe that their will to remain in 
the United States is greater than any monetary bond that could 
be set. So whether it be $5,000 or $100,000, I think----
    Mr. Souder. What about the will of the person who put up 
the money?
    Mr. Jordan. Well, if there was a larger bond set, then 
obviously less people would be able to get it.
    Mr. Souder. But also, there is accountability, what if your 
person jumped bond and you posted it, you could go to jail?
    Mr. Jordan. That might be in fact--I have never really 
pursued that or even thought about those procedures, but that 
in fact could be an issue.
    Mr. Souder. Now going back, if the person has a criminal 
charge that could be prosecuted, you will detain them, correct?
    Mr. Jordan. Yes.
    Mr. Souder. And then you will prosecute them.
    Mr. Jordan. Yes.
    Mr. Souder. And they will serve their sentence in the 
United States.
    Mr. Jordan. Yes.
    Mr. Souder. Then are they deported?
    Mr. Jordan. Yes.
    Mr. Souder. And do we have a tracking mechanism other than 
if we happen to catch them back again at the border? In other 
words, let me ask the question this way, I know from Guatemala 
and El Salvador, this is the complaint of Central America--
Mexico is a different problem. In Guatemala, they had, and El 
Salvador, minimal gangs. The parents came to the United States 
to work, kids got involved in gangs, started selling drugs 
because of our drug consumption process in the United States. 
We put them in prison, we ship them back to Guatemala. 
Guatemala now has street thugs that are running many of their 
cities that they did not have prior to them getting their drug 
habits in the United States. Their police have to buy their own 
bullets, they have to buy their own gas, they have a very 
ineffective police force and increasingly in Guatemala and El 
Salvador, the gangs are taking over the countries, which are 
mainly kids who grew up in America, did not grow up in that 
country. They are complaining to us that it is our drug habits 
that have fueled the gang problem in El Salvador and Guatemala.
    The question is how are we interacting with those 
governments? Do we provide the names to them, do we help them 
track? I am not proposing putting a chip in the individuals, 
but somehow, the fact is that there is less than a 20 percent 
chance we are going to catch somebody at a border crossing, let 
alone in between the border crossings, and deporting criminals, 
as you noted in your testimony, and several others are going to 
note, they come right back.
    Mr. Jordan. Well, when we deport them, if they are a known 
criminal and we believe they are going to have a propensity to 
continue their crime, we in fact do notify the governments that 
we in fact ship them to. They are involved in the process. We 
do not in fact just return them, we in fact involve the 
governments in the process of returning their citizens to them.
    What we do in those particularly egregious offenders, we 
issue what we call a green notice through Interpol. They are in 
fact put on notice that those folks are coming back. So the 
foreign governments are involved in the process of returning 
them. We do not just return them clandestinely, they do get 
involved.
    As far as tracking them when they return to the country, 
through our data base, our biometric data bases, we will know 
when they are captured again, if we capture them again, we will 
know even if they are using a different name. They can get a 
different kind of identity, different kind of identity 
documents even from a different country, but through our 
biometric systems in our data bases, we will know that in fact 
they are not who they purport to be, they are in fact this 
other individual.
    Mr. Souder. Is this data base available to State and local 
law enforcement all over the country?
    Mr. Jordan. It is not at this time. Only certain law 
enforcement agencies have that. Under the 287(g) program that I 
have in the long version of my testimony, in North Carolina, 
the Mecklenburg County Sheriff's Department is on line for the 
287(g) program. They in fact will have access to all the data 
that ICE agents have currently, and Border Patrol and CBP.
    Mr. Souder. But a county police officer in a rural county 
in North Carolina, if they stop somebody for speeding, there 
will not be a popup that says this person is wanted for being a 
drug dealer, rapist or whatever? It does not necessarily have 
to say what it is, but a popup that would cause them to check 
it and detain this person.
    Mr. Jordan. They have, through our LESC, Law Enforcement 
Support Center in Vermont, they have through their NCIC 
terminals, their VDTs, vehicle display terminals that they have 
in their vehicles, they can run what we call an IAQ query. And 
that will in fact tell them that this individual is on record 
with ICE and he is a returned illegal alien, and all the 
information that we have. Without fingerprints and biometrics 
that we have in place physically, you are not 100 percent sure 
without the fingerprints and the photographs.
    Mr. Souder. Right. But it is enough to detain the person.
    Mr. Jordan. Absolutely.
    Mr. Souder. And every law enforcement official has the 
ability to tap into that. Whether they have the equipment to 
tap into it is another question. But through RIS and local law 
enforcement programs, they can get into the Vermont center?
    Mr. Jordan. Yes, they can, anybody that has access to--and 
hopefully NCIC is 100 percent of law enforcement agencies in 
the United States, it will tell them that yes, this individual 
they have in front of them has a detainer issued on him, it 
will tell them he's an absconder, will tell them that he is an 
illegal alien and been removed previously, how many times. The 
data is there, and the turnaround time is a matter of minutes. 
It is not, you know, days, fingerprint turnaround time, it is 
actually in a matter of minutes. So the officer, the trooper 
can in fact get that information on the side of the road.
    I have some figures of the increase in inquiries. It is 
positive to note that the North Carolina inquiries have risen 
substantially over the years. The number of electronic 
queries--and this is what we are talking about, the inquiries 
that officers and deputies do from the departments on the side 
of the road--received from officials in North Carolina 
increased from 2,640 in fiscal year 2004 to 2,865 in fiscal 
2005 and it continues to rise as we speak. It is a tool now 
that is getting--I do not want to use the word popular, but 
more noted, people are aware of this and they in fact are using 
the system more frequently, to the point where we hire more 
staff to staff our support center in Vermont.
    Mr. Souder. Thank you.
    Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Jordan, and thank you for what you 
and your colleagues are doing, we really appreciate that.
    I have a couple of questions that I want to ask, to follow 
along a little bit of what the chairman was saying.
    What could Congress do to assist ICE and local law 
enforcement personnel in taking a much stronger stand on 
identifying not just gang members, but criminal aliens out 
there and be able to detain them and prosecute them, and 
hopefully deport them, but at least prosecute them and put them 
where they belong, either in jail or somewhere else? What could 
we do to make that tie between the local folks and you 
stronger?
    Mr. Jordan. Well, first of all, things like this, today's 
hearing, go a long way in doing that, in bringing this out in 
the light and letting the public know that these problems exist 
and that they are real and they are in our backyard.
    Second, the program exists currently, it is under the INA 
Section 287(g) which is that program that has been implemented 
in Mecklenburg County, and it is available to other State law 
enforcement agencies, and what that does is that allows, it 
gives the Secretary of Homeland Security the authority to 
designate State and local officers as immigration officers to 
act on our behalf. That works most effectively in the jail 
settings, because when the violator is apprehended and 
processed into the jails, on the intake side, his alienage will 
be determined. So heretofore, they could guess, they could run 
an IAQ, that data base that we previously discussed, if he is a 
first time offender, he will not be in the IAQ or if he gives a 
false name and has bad documents, it may not match in that 
system. But the 287(g) program, the deputies and the troopers 
will have ability, access to the biometrics, so if he says his 
name is Joe and his real name is Bob, we are going to know. In 
fact, we are going to know that he in fact has been removed 14 
times, 10 times, however many times it is. In those particular 
cases, we will be able to prosecute him federally for re-entry 
after deportation. Some of the unfortunate accidents that 
occurred in Mecklenburg County with drunk drivers, that is how 
we determined that the individual actually had been removed 
from the United States 17 times, it was actually through those 
identification processes, the data base that is in our system.
    That program is a very good system in place, it works best 
at the intake side of--in a jail facility but it actually is 
also working in Alabama and Florida at the trooper level, the 
road officers have that authority as well. They will have to 
move the suspected alien down to a location where they can run 
his fingerprints, but that program and the support for that 
program is immense and that really goes a long way to identify 
the aliens that are processed through the court system, the 
jails. In North Carolina, for instance, if the alien is 
identified as someone that we want to remove that will be 
removed, when they are processed through their criminal system, 
ICE will not remove somebody out from underneath their criminal 
charges. They will in fact do their time. The detainer follows 
them along in their criminal incarceration career, for lack of 
a better word, and then at the appropriate time, upon their 
release, ICE will be looped in again and we will in fact take 
them and remove them from the United States.
    Ms. Foxx. I guess one of the concerns that people have is 
how do--we hear so much about repeat offenders and folks that, 
you know you have difficulty prosecuting and getting out of the 
country or keeping in jail, and trying to identify who those 
people are. Now generally, we hear that folks like that are not 
going to make themselves known publicly, but I have 
constituents who have raised the issue with me over the 
demonstrations that have been occurring in the last week or so 
as to why did we not use the opportunity for when all these 
folks were together in these demonstrations, many of whom we 
know had to be illegal--why did ICE and other Federal agencies 
not go into those groups of people and identify who is here 
illegally and arrest them. What were the reasons that we 
allowed those demonstrations to go on? Now obviously if people 
were here legally, they have the right to demonstrate. But what 
has happened in the last few days has incensed a lot of people 
because the statistics we get are that up to 80 percent of the 
people who are here are here illegally. So why not use that 
opportunity to go in and find out who is here illegally and 
arrest them?
    Mr. Jordan. Well, it is a matter of priorities and national 
security issues. We did not know and we do not know that those 
folks were here illegally. We had no idea, other than maybe 
ability to speak Spanish and have Latino surnames, there is 
nothing to indicate to us that they are in fact here illegally.
    Second, the volume, the masses of people, you know, the 
officers' safety. I discussed this with Chief Daryl Stevens of 
CMPD and his opinion was the same, that you do not want to 
venture forth with a limited number of folks into a setting 
like that, because the propensity toward the violence toward 
officers is great.
    Our priorities are national security issues, critical 
infrastructure protection first. So when we encounter aliens 
that are in a position to cause us harm through working like in 
a nuclear power plant or any kind of infrastructure, water 
treatment plants, things like that, military installations, as 
such is multiple cases here in North Carolina, that is who we 
identify first and foremost. So it was a matter of priorities 
and the safety of the individuals as well.
    Ms. Foxx. One more question along this line. You were 
talking about this Section 287(g) program and the folks in 
Charlotte, and I know a little bit about that from having 
worked with Congresswoman Myrick about trying to increase the 
ability of the Charlotte-Mecklenburg folks to apprehend people. 
Do we have the capability now, for example, in Winston-Salem, 
if the sheriff and the police here wanted to gain the right or 
the ability to apprehend illegals here in this area--what would 
be involved in doing that and is ICE actively promoting 
extending your ability to do your work through the use of local 
law enforcement, or are we just depending on hiring more people 
at the Federal level?
    Mr. Jordan. The process--that is a two part question. The 
process of applying for the 287(g) program is an application 
process, so that sheriffs, chiefs of police, they can contact 
me or the Special Agent-in-Charge in Atlanta, but most often 
prefer to contact me at the North Carolina office. In fact, 
Kill Devil Hill's chief of police has contacted me regarding 
this program. And likewise, Gaston County. And the process is 
that they are sent, the chief or the sheriff is sent an 
application and there are certain questions that are asked of 
them regarding their ability to support the program and then 
there are other questions that I have to answer on the local 
level--do we have agents to support the program, and then 
detention or removal operations, they have questions as well, 
can they support the program, meaning the increased workload. 
So that is all bundled up and then sent to Washington.
    Based upon the parameters and the answers that are in 
there, if the approval is granted by the Assistant Secretary of 
Immigration and Customs Enforcement, then we craft a memorandum 
of understanding, and that will delineate to everybody involved 
who is responsible for what. And once that is crafted and 
signed by all parties involved, then the training occurs. And 
the training is very intensive, it is the exact same training 
that ICE agents get on all aspects of our enforcement procedure 
regarding determining alienage, their rights, responsibilities, 
sensitivity, issues like that.
    So that is a program that individual sheriffs and chiefs 
can apply and it is an informal application. They just call me 
and I e-mail them the documents and then we start it from 
there.
    And the second part of the question, I kind of forgot, but 
I think it was do we have the staff to support that. I go back 
to my previous response of it works best in a jail environment, 
in a jail setting, because, for instance, Alamance County, 
should they be involved in this program, or Forsyth County, and 
they have a contract with us; once the alien is in the system 
there and processed and he has done his or her time and it is 
time to go, they call us, they have determined that he is in 
fact an illegal alien and is removable. He does not really go 
anywhere, the billing for his bed moves over to ICE and then 
detention and removal, in their loop, swings around and picks 
him up and begins the removal process.
    So it is a way to increase enforcement, State and local 
officers, that is where the rubber meets the road, everybody 
comes funneled through there. That probably is the best place 
to determine alienage is at the initial intake of the folks 
coming into the process. The fear is that we go out or that it 
would create--I know the fear is because it has been expressed 
to me multiple times by chiefs and sheriffs, is that the fear 
in the community is that it will stifle the crime reporting 
process by the illegals. But the response to that, and the 
sheriffs and the chiefs that have that fear should not have 
that fear because what we put out is that--and it is the case--
is that you are not going to be processed if you are not 
already being arrested for some other crime. A reporting party 
to a crime does not get arrested and processed to the jail. So 
that fear is mislaid, it is not really appropriate. But that is 
actually where the rubber meets the road, is in this program, 
and all the aliens that process through the particular county 
jail can be identified. And that is really the name of the game 
these days, is security and knowing who is here and identifying 
those people that are here.
    Ms. Foxx. One more comment, Mr. Chairman.
    So we could effectively expand the ability to find these 
people and keep them in prison if we had more local law 
enforcement people who were trained under this program. And 
that would increase what--would allow you all to work more on 
the national security issues perhaps and let us work more on 
gang issues, sexual predators and maybe more common law issues, 
where the health and safety of local citizens is involved and 
allow you all to work on the national security issues. Would 
that be safe to say?
    Mr. Jordan. Yes, ma'am. And as well, it allows everyone to 
identify everyone that has come in contact with law 
enforcement, so we would in fact know who they are here and if 
they have not been in contact with us and they are in fact 
illegal, at least we would establish a base line, I call it a 
base identity. The first time contact, his name and data or her 
name and data gets put into the system. So we would have in 
fact a base line to identify everyone that is here illegally 
that has come through the criminal justice system in some 
fashion.
    The caveat is only those that are processed through the 
intake side of the jails.
    Ms. Foxx. Thank you very much.
    Mr. Souder. I had a really unusual story I wanted to blend 
in with--the difficulty of what we are facing here is that last 
fall we were having weekly meetings trying to figure out how to 
work on an immigration bill and coming to basically very little 
progress at that point, but back in my hometown, I talked to an 
individual who was very upset. They had several small children, 
they were trying to make their house payments but her husband 
had just been deported through DHS and she wondered how to get 
him back and what procedures to go through. And finally I got 
frustrated and I said well, you know, he can just walk across 
the border, it is not like he is likely to get caught, and she 
said well, he does that all the time, but the speculation is 
that you guys in Congress are going to pass an amendment that 
says if they get caught a second time after deportation, they 
are not going to be eligible for the work permits or the 
citizenship track. So he is waiting down in Mexico to see what 
you guys do. Which was interesting because the community was 
about 9 months ahead of what we were doing, trying to adjust 
their behavior. By the way, it is a pretty good amendment and 
if people are getting deported right now, they best not come 
back in, because we are likely to put something like that in. 
But it shows the difficulty of this because we are sitting here 
trying to figure out how to implement it and do it and those 
who are actually coming for jobs, have extended families, have 
often been here for many years, have houses, all sorts of 
things, are calculating based on what we are saying here today 
and how we are working and it is an interesting process.
    I had a couple of technical questions on government 
structure. The FBI has been tasked to do gangs work in 
particular. How do you inter-relate with them? Do you deal only 
with gangs that are illegal, and if they are working with a 
gang and run into somebody illegal, how does ICE coordinate 
with FBI?
    Mr. Jordan. We coordinate almost--well in North Carolina on 
a daily basis with that. We vet our targets, they vet their 
targets. We work collectively on Operation Community Shield, we 
work very well with them. We just do not discriminate gangs, 
foreign-born gangs because gangs also are comprised--gangs 
comprised of U.S. citizens also commit crimes that ICE has the 
authorities and the abilities to investigate--drug smuggling, 
money laundering, things like that. So we work hand in hand 
with the FBI in that process and that really is a very good 
process, we work together very well. Again, their philosophy is 
our philosophy, we will prosecute them to fullest extent of the 
law for Federal violations. Should they not be amenable to 
those, then ICE uses in our tool kit our removal process. So it 
is not against the law to be a member of a gang.
    Mr. Souder. So there is a gang working in North Carolina 
that is doing drug smuggling and includes both citizens and 
non-citizens?
    Mr. Jordan. Yes.
    Mr. Souder. Is it DEA, you or FBI, and how do you do that?
    Mr. Jordan. All three.
    Mr. Souder. Does one of you take the lead? Whoever starts 
the case?
    Mr. Jordan. The lead is basically determined by lots of 
factors, who has the initial information, who has the best 
informants, who has the best case, but we all pitch in and play 
as equal partners. In the Federal level, there are no second 
chairs, everybody has an equal chair at the table. And here in 
North Carolina, I am very proud to say that everybody gets 
along very well. John Emerson and Kevin Kendrick both are not 
only professional friends, but personal friends of mine as 
well. We get along very well and the agents work together very 
well as well as with the State and locals.
    Mr. Souder. You said this could be daily, is it 
instantaneous? For example, you would not take somebody down 
without checking with the other agencies; when you are doing 
controlled deliveries, you are working with the other agencies 
so you do not wind up tripping over each other?
    Mr. Jordan. Yes. In controlled deliveries, we have a 
vetting process that takes place, so when we do controlled 
deliveries, we are in constant contact with, for instance on 
drugs, controlled deliveries, DEA. In fact, our process has 
involved that we have to formalize that contact and that 
vetting process, so that we do not cross paths. First and 
foremost is officer safety. We do not want to be going out 
there setting up on something that they are setting up on and 
that, first and foremost, is our primary concern. Second, we do 
not want to cross paths and step into the middle of something 
they are doing; likewise, they do not want to do that with us, 
to ruin the investigation and long-term effects.
    We are not after the street level folks. The best way to 
destroy an organization is two mechanisms--one, take off the 
agency leadership and, two, take off their financial funding 
mechanisms, which is the asset seizures and forfeitures. You 
cutoff the way that they get the money, because every crime, 
absent of a few, the real reason they commit it is for money, 
for financial gain. So ICE has learned a long time ago that on 
the Customs side, and that is what we brought to the table, is 
that is how you dismantle an organization, is cutoff their 
financial backbone. So we collectively work together like that 
and it works very well.
    Mr. Souder. So you are doing deconfliction too with 
Treasury, with Secret Service and with local law enforcement?
    Mr. Jordan. Absolutely. On our counterfeit document side, 
our Operation Doc that we have out there in the western part of 
North Carolina, we do the same as well. They are partners in 
the program and we do those deconfliction processes as well.
    Mr. Souder. Do you have any further questions?
    Ms. Foxx. No.
    Mr. Souder. Well, thank you very much for your testimony. 
We may have some additional written questions as well to fill 
this out a little bit. Thank you very much.
    Is everybody from the second panel also at the microphones? 
The second panel is State Representative Dale Folwell; Thomas 
Keith, district attorney, 21st Judicial District; Debra Conrad-
Shrader, vice-chair, Forsyth County Board of Commissioners; and 
Brandon Holland, Forsyth County director, Zero Armed 
Perpetrators [ZAP] Program.
    If each of you would stand and raise your right hand so I 
can swear in each of the witnesses.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    We thank you for your testimony today and being willing to 
participate. And we are going to start with Representative 
Folwell.

 STATEMENTS OF DALE FOLWELL, A STATE REPRESENTATIVE, STATE OF 
   NORTH CAROLINA; THOMAS J. KEITH, DISTRICT ATTORNEY, 21ST 
 PROSECUTORIAL DISTRICT, NORTH CAROLINA; DEBRA CONRAD-SHRADER, 
VICE-CHAIR, FORSYTH BOUNTY BOARD OF COMMISSIONERS; AND BRANDON 
HOLLAND, FORSYTH COUNTY DIRECTOR, ZERO ARMED PERPETRATORS [ZAP] 
                            PROGRAM

                   STATEMENT OF DALE FOLWELL

    Mr. Folwell. Thank you, Mr. Chairman.
    You have often heard the term that some people cannot see 
the forest for the trees and I am sort of a tree person, so a 
lot of the information you are going to get from me today has 
to do with what we deal with not only on the State level, but 
in some respects through our public education system.
    Illegal immigration is the biggest unfunded mandate that we 
face at the State level. And it is having a very big effect on 
obviously our public health, public safety and public education 
systems. We are facing crises in North Carolina in all those 
three areas. You used the term earlier ``steroids,'' illegal 
immigration introduces steroids to that crisis that we face in 
those three areas.
    I would say that North Carolina is somewhat unique in that 
we are trying to drive down the cost of living and doing 
business in this State, but yet we are facing a trade war, we 
are facing a crisis in literacy and now we are facing a war 
with the illegal immigrants. You have often heard all the 
information regarding how it is affecting our public health 
systems. Let me see if I can educate you a little bit about how 
it is affecting our local school system.
    Our local superintendent--this is spring break week for 
public schools, and he regrets not being able to be here today, 
but I was able to speak with him. In his tenure, which is I 
guess about 11 years, we have gone from 3 ESL centers in 
Forsyth County to 43. ESL is English as a Second Language. From 
3 three to 43. I do not even like the term ``English as a 
Second Language'' because the statute in North Carolina says 
that English is the official language in North Carolina. Why do 
we need to even have an ESL mnemonic?
    Second, and this is a staggering figure, Mr. Chairman--from 
1994 to 2006, which is 12 years, our Hispanic population has 
gone from less than 1 percent to 15 percent in that period of 
time. It is dramatic enough except for the fact that we are the 
124th largest school system in the United States, with almost 
50,000 people.
    I want to be very clear in pointing out something, I am not 
one who always looks at people who are Hispanic as being 
illegal. I do not always consider people who do not speak 
English as being illegal, but we do know there is a high 
correlation between those two things.
    This is also affecting our community college system and our 
public university system to some degree. It is estimated that 
over 35 percent of the people taking non-accredited courses in 
our community college system are here illegally. They pay--we 
are supposed to be charging those folks an out-of-State 
tuition, but they stay the in-State, non-accredited rate.
    The other thing that I wanted to add is that illegal 
immigration has also introduced something that is going to be 
very hard for North Carolina to overcome, and that is our 
underground economy. If you were to speak to our Secretary of 
Revenue in North Carolina, he would tell you that our 
underground economy--that is, the folks that are not paying 
taxes on the business transactions in the State--is another one 
of the most epidemic problems facing North Carolina.
    The other effect it is having is on wages. There was a 
report done recently called ``Falling Jobs and Falling Wages,'' 
and it talks about the living wages of North Carolinians. The 
effects of illegal immigration are having a depressing effect 
on the wages of this State, especially those at the lower end 
of our economic scale, which is forcing more people out of work 
and more people onto the social welfare systems of our State.
    I want to make a couple of editorial comments if I may, Mr. 
Chairman. I really thought long and hard about what is 
different about this group of immigrants versus the immigrants 
that came in in the 20th century. And what I have come to 
realize is that what is very different about this is that the 
group of immigrants that came into this country in the 20th 
century were evangelical about bonding and assimilating into 
this society. And I think that is what is very different about 
the group of immigrants that we have in North Carolina today, 
especially the illegal immigrants.
    I think it is very important that we understand that this 
issue affects us from the brain, from the heart, from the 
stomach and from the pocketbook. And from the pocketbook 
standpoint, illegal immigration introduces cheap labor into our 
State. And cheap labor benefits few, but the rest of the 
taxpayers in this State are paying for the effects of illegal 
immigration.
    I think it is important and I think with your help we can 
do this, and Congresswoman Foxx has obviously set the tone on 
this. We have to set the tone, set the strategy and set the 
goals for how we are going to deal with illegal immigration in 
North Carolina, both at the State level, the local level and 
how you can help us at the Federal level.
    I think that North Carolinians are ready for an answer on 
this problem and I think some of the answers that you might be 
able to help us with locally that can help our problem are; No. 
1, I believe that we need to cut funding to Mexico as it 
relates to the amount of money that is being wired out of North 
Carolina and the other 49 States in this country from all the 
wire transfer agencies in this State and likewise throughout 
the country. It is estimated that over $50 billion a year is 
being wired out of the United States to Mexico and that funding 
should be offset toward the amount of foreign aid that we give 
to that country.
    Second and most importantly, we need a deportation center 
in Winston-Salem. Across the street you have a jail, which your 
ICE agents would probably certify is one of the best values on 
the East Coast. And we have room in that jail that we could 
rent space out for a deportation center. We have an airport 
that is 3 miles from where we are sitting which could greatly 
utilize air traffic. After we deport people, instead of going 
out and paying for people to get on private air carriers in 
some cases, actually have airplanes going out of Smith-Reynolds 
Airport to the countries of origin where these people need to 
be deported to. That would drive more revenue and better 
utilize assets that the State taxpayers, the local taxpayers 
and the Federal taxpayers have already purchased. That is why 
we need a deportation center in this area.
    Third, I think we need to empower local law enforcement to 
start detaining illegal immigrants in this area. As you know, 
North Carolina--and I want to say this very clearly--is the 
fastest growing State in the United States. Our growth rate has 
now exceeded the California growth rate--California, New 
Mexico, Texas, Arizona and Florida, in terms of our growth rate 
of illegal immigrants.
    The other three things that I would like to add is that I 
would like for you to support any Federal legislation that 
comes through Washington that would say that in order for any 
child born in the United States to have citizenship status, 
that they have to have at least one parent who is a legal 
resident of the United States. That would help us dramatically.
    I think that when you start looking at the issue of 
business and how this affects business, I think you also have 
to look at not only business, but also other employers of 
illegal immigrants. I think that you also need to look at the 
non-profits, who may or may not be employing illegal 
immigrants, and I think you also need to look at the 
government, whether it be the Federal, State or local 
government, who, through coincidence or whatever, may be 
employing illegal immigrants also.
    I will close by saying this, Mr. Chairman, that in my study 
of economic history over the last--I have not studied it for 
200 or 300 years, but I have looked at economic history for the 
last 200 or 300 years, there are two things that countries 
really never can survive--a devaluation of its language or a 
devaluation of its currency. And I would ask you to help us as 
North Carolinians and as citizens of this community, to help us 
deal with this problem.
    I will be glad to answer any questions you might have.
    Oh, may I add one more thing?
    Mr. Souder. Yes, sir.
    Mr. Folwell. On the public education system, one thing that 
I want to add is that we do have double standards, and some of 
these double standards that we have relate to some of the 
policies that are put on us by the Federal Government. For 
example, if a child who is here illegally wants to enter our 
public school system, all they have to do is produce a Bible 
with the child's name and date of birth written on the front 
page. Where a lot of other people, in order to get people in 
the public school system have to produce a raised-seal birth 
certificate and immunization records. That is basically unfair 
and that is a double standard. North Carolinians are very 
forgiving, but we do not really tolerate double standards very 
well.
    Second, there is all kinds of anecdotal information about 
the effect that illegal immigration is having on our public 
education system. Our public education system is--we are maxing 
out, we are getting in violation of building codes because of 
the amount of mobile classrooms that we are having to put 
onsites in order to deal with this problem.
    Another piece of anecdotal information is that most 
everything that comes out of our public school system has to 
come out on two sheets of paper bilingually, another cost.
    And last, our son is in middle school and all the glossary 
and all the terminology of this textbook has to be done 
bilingually also. This textbook weighs 8 pounds. You have all 
heard reports, I see some young folks in the room who have had 
kids in public schools who the kids themselves weigh 75 pounds 
and they are carrying 50 pounds worth of book bag every day to 
school. I know that is not a big deal to a lot of people, but I 
know that the price of this textbook had to be increased in 
order for the answers to be produced bilingually.
    So with that, I want to once again thank you for coming and 
listening to our concerns and I hope that I can answer any 
questions that you might have.
    Mr. Souder. Thank you.
    Our next scheduled witness is Mr. Thomas Keith, district 
attorney, 21st Judicial District. Thank you very much.

                  STATEMENT OF THOMAS J. KEITH

    Mr. Keith. Mr. Chairman, thank you.
    I am the guy that does 98 percent of the cases that go 
through the court system. We send about 2 percent across the 
street here to the Federal Government. I am the district 
attorney of Forsyth County, 320,000 people with Winston-Salem 
as the center.
    I will not paint the somewhat rosy picture that I heard 
from Mr. Jordan, the ICE agent. I will tell you that what is 
going on here as well as what is happening on the street. As 
recently as two nights ago, I rode with an interdiction team 
looking for license plates, headlights out, what-have-you, 10 
at night. We stopped a car for having no tag, it was from 
Arizona. Open up the door, there are nine non-English speaking 
Hispanics crammed into the car, probably a phony registration 
rented to a third party. Obviously proceros being brought in 
from across the border into western Forsyth County.
    What did we do about it? We did nothing because we do not 
have the ability to do anything about that. We have no jail 
beds to put felons, more or less people who are just passing 
through who have made illegal entry into the country.
    We have three of the hardest working ICE agents for 24 
counties, the middle district of North Carolina, that probably 
spend 75 percent of their time on my cases because they are 
right across the street. I meet with them weekly in our ZAP 
review, which is our gun program. And we watch the increasing 
number of illegal immigrants with weapons, up to 24-25 percent 
of the cases we review now are all by Hispanics.
    We do not know who these people are, we have no jail beds 
here for ICE and if you want to open up the 10th floor, then 
Ms. Shrader, Conrad-Shrader, will tell us what a floor of the 
jail will cost. Remember, to have one 24-hour a day, 7 day a 
week law enforcement personnel takes over five people. So if 
you want to staff the jail 24/7 365 days a year, it is very 
expensive. The prison construction cost now in North Carolina 
is $79,000 a bed. The general rule of prisons is it costs about 
a third that much per year to run it. The current Department of 
Corrections [DOC] cost is $22,500 a year.
    We do not have anywhere to put people, in State prison, in 
our local facility. We can hardly get prison people now to work 
in a Forsyth County Detention Center. It does not pay that 
well, it is risky, it is an open facility, as is this room, 
they are not locked up in individual cells. ICE, their local 
people, their biggest cry here is for a local facility, they 
need some place to put people just for the people that I want 
them to try, let alone the people that are buzzing down 
Interstate 40 at 10 at night.
    Let me get back to my notes, you have my revised remarks. I 
will quickly go through what we feel the problems are here.
    The gangs are about 57 percent Hispanic based on Winston-
Salem Police Department statistics. The DEA and the National 
Intelligence Center have produced monographs referred to in the 
first page of my remarks where they say ``Mexican criminal 
groups are the primary transporters of powdered cocaine.'' 
``Mexican criminal groups are the dominant wholesale 
distributors of marijuana.'' And ``most of the methamphetamine 
available in North Carolina is produced in Mexico'' and of 
course, transferred here.
    As late as March 2006, National Drug Threat Assessment 
continues with that vein. So most of this stuff is coming in 
from across the border.
    The presence of gangs here has grown since probably 1995 
when I got interested in this. We are seeing consolidation, 
some of the smaller gangs are being subsumed. There is 
leadership, centralization now, there are people coming in from 
California into North Carolina. We are not at the California 
gang stage, but we can see, the leaders here can see the next 
stage. Probably after the centralization, you will have entry 
into the retail drug market.
    The last time I had a shakeup in my retail drug market was 
in the early 1990's when we took out a lot of local drug 
retailers. Their void was filled by Jamaicans, Dominicans and 
others. We had 44 murders that year. Winston-Salem had the 17th 
highest crime rate in the United States. And after 10 years, 
the sheriff and I, the chief, have driven it down and we are 
the lowest crime rate of any of the major cities in this State. 
We dropped to 79th.
    Now I look out on the horizon and I see this consolidation 
of gangs and the specter of methamphetamine coming. I went to 
California, got trained by DEA for a week out there on 
methamphetamine labs, learned that it has now replaced in 
California crack cocaine, which used to be a tremendously 
addictive drug. We have a drug treatment court here, I can get 
about 60 percent of the people off of cocaine in the year and 
the success rate is about 7 percent in methamphetamine in 
California. So I have this coming here. The National DA's 
conference I go to every year, a girl from Guam, a lady from 
Hawaii, California--what is your biggest problem--
methamphetamine. And again, it affects the crime rate.
    The national rate of incarceration from 1920 to 1980 was 
about a flat 110 per 100,000; cocaine hit, powdered cocaine 
hit, by 1986 it was up to 425 per 100,000. It is now 725 per 
100,000 with crack cocaine. What is meth going to do to the 
cost at the county jail over there, where we are using a 
tremendous amount of our resources? What is the cost to the 
State prison system? As it has grown, the prison system in this 
State has increased its share of the budget pie by 17 percent 
in the last 20 years and the education piece of the pie has 
gone down 17 percent. So we are putting people in jail at 
$22,500 a year and it is coming straight out of the school 
system.
    The increase of these gangs will bring nothing but more 
drugs. You cannot say drugs without saying gangs, without 
saying Hispanic aliens. That is what the DEA and the National 
Drug Intelligence Center monographs will tell you.
    Here, in a small southern, mid-size town, we have seen in a 
chart that I prepared, you have a copy of it, in drug 
trafficking, which is a State crime, from 1998, Hispanics, 
according to the Department of Corrections, who keep their 
records by ethnicity, so that would be Hispanic/Latino, they 
go, in 1998, they suddenly appear as seven people from Forsyth 
County going to prison for drug trafficking, until 2005, we are 
now over half of the drug traffickers that I send to prison are 
Hispanic. The prison itself, the North Carolina Department of 
Corrections, which has a very low Hispanic population, they are 
under-represented in the State Department of Corrections; in 
the area of drug trafficking, they have 33 percent of the 
entries this year.
    The value, the amount of drugs coming into this community, 
again a fairly mid-size southern area, according to the 
Sheriff's Department statistics in 2003, for the last 6 months, 
they picked up about $950,000 in value of drugs, $350,000 cash. 
The next year, it was $9.3 million, a tenfold increase in drugs 
and $432,000 in cash. 2005, it has gone up to $40 million in 
street level of drugs and $962,000 in cash was confiscated.
    The Winston-Salem Police Department, much larger 
jurisdiction--2003, $762,000 worth of drugs, $136,000 in cash 
was confiscated. The next year it goes up ten-fold, $8.6 
million and $242,000 in cash. 2005, drops down a little bit 
because the big Texas case is not included, to a mere $5.2 
million and $485,000 in confiscated cash.
    The purity of the drugs has gone way up. I have some 
photographs. Unfortunately I guess if I introduce them, I 
cannot get them back and we do not have the budget to make 
these copies at $10 each. I can show them to you at some other 
time, but we just cannot make copies and hand them in.
    There are firewalls of cars where kilos as brought in, they 
are in the driveshafts, they are in the air cleaner, they are 
in the frame of the car, they are ingenious in how these groups 
bring the drugs in.
    The price of drugs is driven down. I have practiced law 
here 35 years. In the Federal courts in the 1980's, I 
represented a lot of people in drug cases and in getting 
prepared for the hearing today, I was amazed at the purity of 
cocaine, which is way up there, almost pure stuff on the 
street. It used to be 5, 10, 15 percent because everybody would 
step on it; that is, you would cut it. You would bring it in 
from California where they cut it two-to-one, I would get it 
here in Winston-Salem, cut it two-to-one, it is down to 25 
percent pure. The stuff on the street is outrageously pure, 
because there is so much of it. The price is down. The police I 
talk to, it used to be I ran a grand jury here for about 5 
years in the early 1990's, investigative grand jury, parallel 
grand jury with the U.S. Attorney's Office, and it was really 
tough to find drugs. We have officers here that are sitting out 
with a pair of field glasses looking at a motel and watch 41 
kilos being unloaded from a car in broad daylight at 11 a.m. A 
local policeman can just drive down the street and walk up to 
some person on the street and say where can I get some weed, 
marijuana. Well, go see this guy, they go there and they pull 
out several hundred pounds of marijuana, no wire tap, no Title 
3, no surveillance, just walk out there. It is everywhere and 
not hard to get.
    Language barrier here, we have a couple of officers who 
speak Spanish--maybe three or four. One of the difficulties is 
if I send Ms. Holland in, who does not speak Spanish, but if 
she did, if she was one of my Spanish agents and I have a wire 
on her, they tell me that they do not have anybody who is 
Spanish who can listen to the other end of the wire. So we have 
to have a key word if they get in trouble to tell the officers 
who do not speak Spanish, hey, come in here, I am in trouble. 
We do not have translators in court. If I have a murder case 
and I have to try five Hispanic people for drug trafficking, I 
have to have an interpreter for every one of them. It is 
costing the State an enormous amount of money. It slows my 
trials down two or three times, and we are the 48th worst 
funded court system in the United States. And I am the third 
worst staffed prosecutor's office in the State. We are doing 
all we can.
    And then here comes the third wave. We need some help. We 
need resources. Every time I go and speak to a public group, I 
say who wants me to get tougher on crime. Every Kiwanis, every 
Moose, every Elk hand goes up. And then I ask them who wants to 
pay for it. And there is palsy in the left arm. [Laughter.]
    We need a lot of help. We need, according to law 
enforcement, probably do away with the three strikes for 
businessmen before they are incarcerated. Evidently there is a 
rule that says that you can go out there twice and we will warn 
you and we will fine you if you are hiring illegal aliens. They 
ought to be at risk of going to jail the first time. That would 
do more good than probably anything. We need more U.S. 
attorneys, they cannot take all the cases I send them. ICE 
cannot take all the cases I send them. We do not have enough 
prosecutors. If I get a good prosecutor, the feds steal them. 
Give us a supplement so I can keep my people. Probably four or 
five people in the Middle District came from my office, they 
certainly pay better and the work is about a fraction of what 
you have to do in State court.
    Probably the two key things is you either close your 
borders to drugs or you put massive amounts of resources into 
the State and Federal criminal justice system.
    Mr. Souder. Thank you for that optimistic forecast. 
[Laughter.]
    The next witness is Ms. Debra Conrad-Shrader.
    [The prepared statement of Mr. Keith follows:]
    [GRAPHIC] [TIFF OMITTED] 30529.013
    
    [GRAPHIC] [TIFF OMITTED] 30529.014
    
    [GRAPHIC] [TIFF OMITTED] 30529.015
    
    [GRAPHIC] [TIFF OMITTED] 30529.016
    
    [GRAPHIC] [TIFF OMITTED] 30529.017
    
    [GRAPHIC] [TIFF OMITTED] 30529.018
    
    [GRAPHIC] [TIFF OMITTED] 30529.019
    
    [GRAPHIC] [TIFF OMITTED] 30529.020
    
               STATEMENT OF DEBRA CONRAD-SHRADER

    Ms. Conrad-Shrader. Thank you, Mr. Chairman.
    We certainly appreciate the subcommittee's interest in 
helping State and local Governments to deal with the 
devastating effects of illegal immigration. This is certainly 
an issue that is very much on the minds of our citizens here in 
Forsyth County. And I might add, Mr. Chairman, I have been a 
Forsyth County Commissioner for 12 years and have the 
opportunity to speak to citizens all across Forsyth County and 
I can tell you that this is the most serious issue we have 
faced and is the No. 1 issue on the minds of the citizens here 
in Forsyth County.
    Immigration, particularly by Hispanic people, is not new to 
North Carolina. Tobacco was, and still is, a very labor-
intensive crop. Immigrants have been coming here for many years 
to work in tobacco. It may be that the agricultural tradition 
was at least a bridgehead for the subsequent immigration 
problems we are now facing, that has made North Carolina among 
the States most heavily impacted by the problems of 
immigration. But I would also add that I think in recent years, 
there have been other factors that have certainly stimulated 
illegal immigration here in North Carolina and made us a No. 1 
destination State.
    For one, we have had very easy access to North Carolina 
drivers license and we have been far too late in trying to 
tighten those requirements. We have certainly had a 
proliferation of forged documentation here in Forsyth County to 
where if they cannot get North Carolina drivers license, they 
can easily pay for forged documents.
    We also have generous benefits here in North Carolina, far 
more than Federal requirements. And as you mentioned, the 
illegal immigration population is very astute in figuring out 
where certain States are that they can get better benefits than 
other States.
    And last, we have certainly had a lack of enforcement here 
in North Carolina in all aspects, whether it is the speaking of 
English as our State language, whether it is in punishment of 
businesses that are hiring illegal immigrants and paying them 
under the table, and we certainly lack the authority to 
apprehend illegal immigrants at the local level.
    Immigration has certainly caused an increase in the needs 
for local public services. As representative Folwell mentioned, 
particularly in the areas of public education, health services, 
social services and law enforcement.
    Fifteen percent of our students in our public school system 
are Hispanic and over half of them do not have English as their 
first language. Our social services case load is about 19 
percent Hispanic, which is also a substantial increase in 
recent years. In our public health department, 38 percent of 
our clients are Hispanic. And at a local outpatient health care 
facility, at least 34 percent of the patients are Hispanic. And 
in the prisoners in our county jail, 11 percent are currently 
Hispanic.
    As this subcommittee knows, it is often very difficult for 
us to differentiate between legal and illegal immigrants, or to 
identify the children of illegal immigrants who are entitled to 
citizenship. And in most public service venues, we are 
prohibited from even asking about citizenship.
    With many services, it would be illegal for us at the local 
level or State level or else morally indefensible to withhold a 
service anyway. The laws that tie our hands at the local level 
need to be changed.
    And I would mention at this point that I personally support 
Representative Sue Myrick's attempts at Federal legislation 
which would give us more local authority and local money to 
address this problem.
    Most estimates of the percentage of illegals seem to be 
entirely anecdotal. Based on the most reliable information we 
can get, it would be, at minimum, 50 percent of the immigrants 
in this county are illegal. Most people place that estimate at 
much higher and I would say that Representative Foxx's 
percentage of 80 percent is probably more accurate.
    If we even use the conservative estimate of 50 percent, 
illegals are annually costing the county government over $4 
million in education, and I have been told at least $100 
million in new school construction over the next decade can be 
directly attributed to illegal immigration. Almost a million 
dollars in our public health department services, a million 
dollars again in local law enforcement and $575,000 in social 
services. As I said, this is based on 50 percent rates, so I 
would not be surprised if the costs are almost double what I 
have just quoted.
    The problem of illegal immigration is very vexing for us. 
We certainly respect the Hispanic people who come here legally 
to work and make a new life for themselves. We also understand 
the desperation that causes people to come here illegally. But 
we are a Nation of laws and our laws and policies concerning 
immigration must be practical, and they must be followed. Our 
citizens are angry and they are very concerned about illegal 
immigration.
    At the local level, we need help with the impacts of 
immigration, period, not just illegal immigration. If it is 
sound national policy to encourage and allow massive 
immigration to provide manpower for this economy--and I am not 
sure that is necessarily the case--then we need help in 
providing services for this mass influx of new people. The 
impacts on us are really the same whether the immigrants are 
new citizens, guest workers or illegals.
    If the national government needs help to enforce our 
immigration laws, we are glad to cooperate and ready to help. 
But we will need financial assistance. Our local law 
enforcement and justice systems already have their hands full.
    In recent years, local governments have had to make 
extraordinary adjustments to accommodate immigration. We are 
willing to do our part, but we are impacted so dramatically by 
Federal policy, or Federal indecision, as we have seen most 
recently last week. We need Federal help and we need it as 
quickly as possible.
    And I would be happy to answer any questions.
    Mr. Souder. Thank you.
    Our last witness this morning is Ms. Brandon Holland.
    [The prepared statement of Ms. Conrad-Shrader follows:]
    [GRAPHIC] [TIFF OMITTED] 30529.021
    
    [GRAPHIC] [TIFF OMITTED] 30529.022
    
                  STATEMENT OF BRANDON HOLLAND

    Ms. Holland. Good afternoon. Mr. Chairman, subcommittee 
members, I appreciate the opportunity to speak with you.
    Again, my name is Brandon Holland. I am the director of the 
Zero Armed Perpetrators Program in the Forsyth County DA's 
Office. And to kind of give you an idea of what I do on a daily 
basis, every case involving a firearm, firearm seizure, 
ammunition seizure, casing seizure or projectile seizure in 
Forsyth County comes to me.
    We hold a weekly meeting with State and local and Federal 
law enforcement agencies to determine the best form for 
prosecution, whether that be State or Federal. Because of that, 
I review every gun case. And our gun cases involving illegal 
aliens has increased dramatically, from 14.8 percent to 28.7 
percent. And because of the increasing gang problems here in 
the county and North Carolina, I am also a reserve deputy with 
the Forsyth County Sheriff's Office and am now working, along 
with my duties in the DA's office with ZAP, I am also working 
as almost a full time deputy involving gang cases, working with 
the local departments here, specifically working on trying to 
track and identify gang members.
    As Mr. Keith said, you cannot talk about gang members 
without talking about drugs and you cannot talk about drugs 
without talking about Hispanics. I will give you three figures 
that are staggering to me. The Hispanic population growth in 
Forsyth County from 1990 to 2000 was approximately 831 percent 
and it is having a great impact on our community and our law 
enforcement. We just cannot handle the volume.
    Out of the 18 validated gangs in Forsyth County, 11 of them 
are Hispanic. We have a group called MAGNET made up of local 
law enforcement that have a criteria, a gang definition and we 
have very strict guidelines to validate gang members. And out 
of those 18 gangs, 11 of them are Hispanic.
    Approximately 25 percent of the cases or gang members sent 
or submitted to Operation Community Shield through ICE came 
from the Middle District of North Carolina. Out of that, five 
agencies in the Middle District submitted those entries and 
three of them came from Forsyth County.
    I will give you three incidents of violent crimes that 
happened within the past couple of years. First of all, a 
shooting that occurred during a birthday party for a 6-year old 
girl. I can refer to page 26 of your handout. Here is a picture 
taken about 30 minutes before the shooting occurred. Words were 
exchanged earlier in the day between two rival gangs. One gang 
was in the backyard of the party, this is this group right 
here. The other gang decided to drive by, knowing they were 
there, and began to shoot. There were approximately 40 rounds 
fired, 12 rounds entered the house and the only person that 
stopped a bullet was the 6-year old girl, ended up lodged in 
her arm. There were multiple firearms recovered but nobody has 
been charged because they had already fled to Mexico.
    The second case is one of an off-duty officer with the 
Sheriff's Office, working in a Hispanic nightclub. Fights began 
in a parking lot nearby. The gang member shot another Hispanic 
male at point blank range, continued to shoot once he fell to 
the ground. And at that point, the gang member began to flee 
the area. And as he was fleeing and being chased by law 
enforcement officers, he turned and fired several shots at the 
officers. And that person is currently awaiting a Federal 
sentence and he is illegal.
    The third, and I think most telling, is one that happened 
in January of this year. One gang member--excuse me--gang began 
to shoot into an apartment of another gang member, because of 
an earlier confrontation, saw him come to the window and then 
leave the window. Therefore, they began to shoot. 
Unfortunately, multiple rounds were discharged hitting a woman 
in another apartment, a mother of small children and she is 
paralyzed for life. At that point, an illegal alien was charged 
and is awaiting trial. The co-defendant fled to Mexico, who was 
also illegal, to avoid prosecution. And another possible co-
defendant who we have not been able to locate was a ZAP 
offender, so a prior gun offender, and was previously deported 
in April 2005.
    As I said, the gun cases involving Hispanics have increased 
from 14.8 percent to 28.7 percent. We have had an increase in 
drive-by shootings. We have had an increase in fights within 
the schools. Even if it is over a girl, we have two rival gangs 
fighting. That is a familiar occurrence unfortunately. They are 
resorting to anything they can get their hands on--baseball 
bats, knives. And unfortunately, we are seeing an increase in 
assault type weapons--AK-47s, so on.
    We work very closely with the ICE agents, as you have heard 
today. Unfortunately, because of the sheer volume, I am pre-
screening a lot of the cases that they get. They are just 
absolutely overwhelmed. We have now started focusing on re-
entry aggravated felons, specifically pertaining to gun cases. 
Actual possession gun cases, not cases that we have to prove 
who owned or possessed the firearm, and gang members.
    Some of the issues that ICE is facing today, as you have 
heard today, jail beds. For adults, right now, there are no 
permanent beds in the Forsyth County Law Enforcement Detention 
Center. They have temporary beds if they are necessary, but 
those numbers are decreasing because of over-crowding. For 
juveniles, and under 18 is a juvenile in the Federal system, a 
juvenile under the age of 18, not needing to be detained, with 
no criminal conviction, they are released to a family member 
and given a hearing date in Atlanta. And you have heard the 
statistics on how often they show. Under 18, they must be 
detained, the ICE agent must take them to a juvenile facility 
and the two juvenile facilities are south of Atlanta and 
Houston, and that must be done at the time of arrest. Under 18 
with a criminal conviction, and as I found out today, if you 
are a gang member, you have to go to Pennsylvania in the 
juvenile facility. And that is the only facility that I am 
aware of that takes juveniles. So jail beds are an increasing 
problem for ICE.
    In the schools, talking about the schools, you have heard 
about the school incidents. Unfortunately, some of the 
recruiting for the Hispanic gang members is starting as early 
as elementary school and it is running rampant in the middle 
schools. Many parents and siblings of some of these kids are 
already gang members, so they are being raised in a house full 
of gang members.
    I was teaching in a local elementary school in a rural area 
here in town and an art teacher ran up to me with a drawing 
that a second grader had done. That drawing was of a gang 
tattoo and we asked the child how she knew about this gang 
tattoo, and it was tattooed on her father's arm from prison.
    There is a disruption now, from what I understand, in the 
ESO classes because of the gang members, they do not want to be 
in school, they do not want to be in class, so they disrupt the 
students that do want to learn. Kids act up in school now to 
get transferred to the proper school where all their other gang 
member friends are and if they do not end up in that school or 
they end up getting kicked out of school or expelled, they end 
up in the community and become society and law enforcement's 
problem.
    In summary, you know, we need resources. That is the bottom 
line for local, State and Federal agencies. Fingerprints, we 
need to fingerprint everybody that comes through the jail. 
Right now in Forsyth County, we are not fingerprinting for 
Class 1 misdemeanors, meaning DWIs, driving while license 
revoked and no operator's license. We need gang legislation 
enhancements for gang crimes. We need harsher penalties and we 
need jail beds.
    If you guys have any questions or anything that I can 
answer.
    [The prepared statement of Ms. Holland follows:]
    [GRAPHIC] [TIFF OMITTED] 30529.023
    
    [GRAPHIC] [TIFF OMITTED] 30529.024
    
    [GRAPHIC] [TIFF OMITTED] 30529.025
    
    [GRAPHIC] [TIFF OMITTED] 30529.026
    
    [GRAPHIC] [TIFF OMITTED] 30529.027
    
    [GRAPHIC] [TIFF OMITTED] 30529.028
    
    [GRAPHIC] [TIFF OMITTED] 30529.029
    
    [GRAPHIC] [TIFF OMITTED] 30529.030
    
    [GRAPHIC] [TIFF OMITTED] 30529.031
    
    [GRAPHIC] [TIFF OMITTED] 30529.032
    
    [GRAPHIC] [TIFF OMITTED] 30529.033
    
    [GRAPHIC] [TIFF OMITTED] 30529.034
    
    [GRAPHIC] [TIFF OMITTED] 30529.035
    
    [GRAPHIC] [TIFF OMITTED] 30529.036
    
    [GRAPHIC] [TIFF OMITTED] 30529.037
    
    [GRAPHIC] [TIFF OMITTED] 30529.038
    
    [GRAPHIC] [TIFF OMITTED] 30529.039
    
    [GRAPHIC] [TIFF OMITTED] 30529.040
    
    [GRAPHIC] [TIFF OMITTED] 30529.041
    
    [GRAPHIC] [TIFF OMITTED] 30529.042
    
    [GRAPHIC] [TIFF OMITTED] 30529.043
    
    [GRAPHIC] [TIFF OMITTED] 30529.044
    
    [GRAPHIC] [TIFF OMITTED] 30529.045
    
    [GRAPHIC] [TIFF OMITTED] 30529.046
    
    [GRAPHIC] [TIFF OMITTED] 30529.047
    
    [GRAPHIC] [TIFF OMITTED] 30529.048
    
    [GRAPHIC] [TIFF OMITTED] 30529.049
    
    [GRAPHIC] [TIFF OMITTED] 30529.050
    
    [GRAPHIC] [TIFF OMITTED] 30529.051
    
    Mr. Souder. I thank you all for your testimony.
    I just want to say this for the record, as a conservative 
Republican who does not favor tax increases. The Federal 
Government is more broke than you are. There is not any other 
way to say that. Our debt--if you take county debt, State debt, 
township debt, city debt, all that together and then you have 
to multiply it by about 7 or 10 or who knows what, to get our 
debt. And our obligations are greater than your obligations 
because of Social Security, Medicare, pension expectations, 
much like the private sector is going into, at the Federal 
level. The only difference is we can print money. What that 
means is we can give you more money, but we are going to print 
more which means you are going to pay for it through inflation 
which devalues your own money.
    There is not money growing on trees to address this. It is 
a matter of prioritizing and trying to figure out how to do it. 
And as a conservative Republican, one of the traps that we have 
gotten into is we oppose tax increases at every single level of 
government. If I favored tax increases, it would be at the 
local level because I do not want the Federal Government 
determining what I do. So when you ask us to cover your local 
costs, it means you are going to get more regulation from us, 
you are going to get more guidelines, you are going to get 
unfunded mandates along with the mandates. That is the dilemma 
we are facing here.
    Now that said, clearly there are some things that fall in 
the Nation purview. One is the border policies. But like North 
Carolina, Indiana had a really lousy driver's license policy 
and that fueled immigrants coming in. Like North Carolina, 
Indiana had a lower unemployment rate, which brought immigrants 
in. Like North Carolina, my home State of Indiana did not find 
the people on welfare particularly wanted to pluck chickens, 
ducks, clean restrooms, they did not want to particularly stay 
in certain manufacturing places. In many cases we could stop 
the immigrant flow, but the plants will just move to Mexico 
because it is fine to talk about higher wages, but in an 
international marketplace, you cannot compete on the Internet 
or elsewhere with the higher wages. So we are on the horns of a 
very difficult dilemma.
    Furthermore, having worked with the drug issues most of my 
career, we cannot find the drug dealers to deport them and when 
we deport them, they come back. The idea of deporting 12 
million people just is not fathomable right now. So we are 
trying to figure out a very complicated way to try to address 
this. At the same time, I do not think there is much 
disagreement, at least on the surface, that you cannot have a 
safe country without better control of the borders. Because it 
does not do any good for us to get a deportation center here if 
all they do is walk right back. We first and foremost have to 
get control of the border and then figure out the internal 
enforcement questions, because as we have established multiple 
times today, you are talking about repeat offenders and we all 
know that the border is so porous--and it is not just there. If 
we squeeze the Mexican border, coming in through Florida and 
the Gulf, but even around to Canada, we are seeing increased 
pressure on the northern border, unless we get the perimeter of 
Canada, because where there is a demand, whether it is for 
drugs or for people or for pornography and prostitution, there 
will be forces that try to meet that demand. So we have to do 
the demand reduction at the same time we are trying to control 
the supply. And this is a massive problem.
    Also, one of the challenges that I see, and I am interested 
if anybody has any comment on this, that particularly in States 
where the illegal immigration has been increasing for 10 years 
plus, but especially in the last 5 years. For example, the 
picture of the kids in the gang, most of those kids probably 
did not choose to immigrate to the United States. They were 
brought by their parents. And one of the dilemmas that we are 
facing with it, I do not have an answer to this question, they 
may have been brought by their parents here 5, 10 years ago, 
they are not Mexicans, they do not know anything about Mexico. 
They have not grown up there, they do not know what the culture 
is like. If you sent them back, they would not fit in.
    Now, they are here in the United States, and correctly, we 
do not want to give driver's licenses to illegals, we do not 
want to give ability to go to college to illegals and so what 
is happening to this group? I have a feeling it is fueling the 
gang part, because I have been told this in multiple cities, is 
the anger level of the young illegals who did not choose to 
come to America, their parents did. When they get to America 
and realize they are supposed to pluck chickens and clean 
toilets the rest of their lives, because they cannot go to 
college, because they cannot get a car, because they cannot get 
a driver's license, the logical reaction is crime and 
belligerence.
    And we have ourselves in the horn of an incredible dilemma 
because we are now trying to deal with it once 12 million are 
here and we did not deal with it a long time ago. And it is 
going to be incredibly complex to unsort this.
    I want to ask Mr. Keith, in the first panel, I was playing 
around with this question on the age of gangs. I always thought 
gangs were younger and maybe as they age, they stay a gang. How 
do you look at a gang in your office, as to what is a gang and 
what is not a gang?
    Mr. Keith. We have our biker gangs who are my age and 
older, so they are gang members. We have a statistic here on 
age.
    Ms. Holland. Page 28 of my handout gives you the 
demographics of our validated gang members.
    Mr. Keith. Looks like between 18 and 23 is about 60 percent 
of the Forsyth County validated. Now we use the standard that 
you were talking to Mr. Jordan about. Our standard is you do 
not have to commit a felony--common signs, common signals, 
intimidation. A gang is a subculture, they literally have a 
book of knowledge which is an upside down world where they 
write everything they think about the work and you look at it 
and say this is crazy. And they literally copy it and these 
guys memorize it. It is a subculture, a new family. Those are 
the younger people.
    But we do have older biker gangs like Aryan Nations, Hell's 
Angels, what-have-you, who are Social Security age.
    Mr. Souder. Have you seen much of the recruitment occurring 
in prisons or in juvenile probation?
    Mr. Keith. In prisons, one of our members that we meet with 
is a North Carolina Department of Corrections, there is a gang 
that sets you up in business when you get out of prison with so 
much cocaine. That is a gang.
    In my earlier life as a defense attorney, I would go to 
prisons and I remember I went to one in Tennessee and the 
prisons are broken down by race of inmates. You are either in a 
White gang or a Black gang or a Hispanic gang. And I asked this 
one guy, what are you doing in a gang, you are in her for 
forgery. He says, man, you fight every day to stay alive and 
you have to have somebody to cover your back. So the prisons 
are breeding grounds of a lot of gangs and then they come out 
and they maintain that allegiance.
    Mr. Souder. In American history, obviously one of the 
recent--last 2 years, as you get older recent seems to go 
longer--there were multiple movies about Irish gangs that 
almost every immigrant group, Vietnam, as they came over after 
the Vietnam War, Los Angeles was dominated by different gangs 
that almost every immigrant group in American history has had 
this subproblem with it, in addition to in my area, which was 
heavily German. Fort Wayne was settled around in the 1830's, 
two of the four newspapers were still in German language up 
until the rise of Hitler; the school systems were still 
speaking bilingual with German over 100 years after they came 
in.
    There is almost always a backlash against the language 
transition in the gangs. Do you see this? Is there any parallel 
with this in North Carolina history? Was it different? I mean 
almost all urban areas in the East Coast, the midwest and the 
West Coast have had this assimilation problem for 30 to 50 
years. It is not an easy process.
    Mr. Keith. My mother was Italian, large family, she was 
about the 5th of 11. She was the first one that we thought was 
born in America until after she passed away. My brother 
presented me with about three different birth dates that he 
found--confirmation dates, birth certificates. And I do not 
know if my mother's family was trying to slip her under the 
wire. We never have determined when her actual birth date was. 
She may have been born in Italy and maybe she was illegal, I do 
not know. One of my uncles fought in World War II for the 
Italian Army and for the U.S. Marines at Iwo Jima. I have seen 
my family go through the assimilation problem, I have seen the 
prejudice in the northeast where I spent about 17 years of my 
life. They would talk about we could not play golf because we 
were Italians, at the country club. They could caddy there and 
they played on Monday, and several of them became very 
successful PGA golf professionals.
    They learned how to speak English. My mother Americanized 
her name. I did not know her name until we looked at some of 
the confirmations, her name was Marguerita, I thought her name 
was Margaret her whole life. She died when I was in my 50's. 
They wanted the American way. But there were not those huge 
groups of them that have come in and have coalesced and work in 
a workplace.
    My daughter was looking for a job in sales. She had a 
friend who sold nails for nail guns for construction. That 
trade in this part of the State has been taken over, the 
framing trade, by Hispanics. She could not get the job because 
she did not speak Spanish and no one on the job sites spoke 
American. They are retaining that language and it is a slower 
assimilation than the Italians or the Germans or Scots. So that 
may be an issue.
    I am here just to talk about the impact on the criminal 
justice system. The rest of the stuff is above my pay grade, 
but at least my own family's experiences. We went on to speak 
English. My mother did not even know Italian, she was not 
allowed to speak Italian.
    Mr. Souder. Ms. Conrad-Shrader and Representative Folwell, 
does North Carolina have, with English as the first language, 
do you have an English immersion for kids? I mean some of the 
things--and I share some of your frustration about some of the 
mandates, but I believe most of those are court mandates, not 
legislative mandates. I do not believe the U.S. Congress made 
the hospital rules or the school rulings or the bilingual. Some 
bilingual textbooks we may have. But I would be interested in--
it is one thing to in effect accommodate the language and 
increasing put it on documents and another to try to do an 
immersion and have it as a second language at home or in 
neighborhoods. For example, there are many areas in the United 
States where you still see, particularly for example, in 
certain Jewish communities in New York City, certain Italian 
communities, certain Vietnamese communities, all the signs are 
still in that language in their neighborhoods. But they also 
speak English. And the question is are we driving toward 
English aggressively enough in the school system and how are 
you doing that in North Carolina?
    Mr. Folwell. We are doing that and that goes back to the 
point I made earlier in that 10 years ago we only had three ESL 
centers out of the 62 school sites that we have in this county. 
And now we have 43. So in a large portion of our schools in 
Forsyth County, they have the program to do the English 
immersion for the elementary and middle school children.
    The problem is that--I should not say a problem, but one of 
the issues we face is that, especially if you get a middle 
school child, I do not know how you were with trying to pick up 
a second language at, you know 20 or 25 years old, but once you 
get into middle school, it becomes very difficult to learn the 
language. And there is a propriety to not learning the language 
in that it goes back to the point I was making about the 
underground economy that exists in North Carolina. I do not 
speak for the police department, I do not know if anybody is 
here from our local Winston-Salem Police Department, but there 
are areas of our community where if you do not speak English 
long enough, there is a high probability that the police 
officer who may have detained you for some purpose is going to 
get a higher coded call. If you do not speak English long 
enough, that person will get a higher coded call and be called 
off to do something else. So there is a certain propriety or 
profit in not speaking English.
    Mr. Souder. Does anybody know, one of the things--I am a 
strong proponent of at the Federal level, and it is not really 
Spanish that is our main concern right now at the Federal 
level, it is Arabic--do you have incentives--clearly, 
regardless of what the Federal Government does, you are going 
to continue to have this language problem. Are you giving any 
financial incentives to officers to get second language? Is 
there anything the State or county is doing to encourage that 
training? For example, this is something I have always thought 
would be mandatory on the southwest border, I do not understand 
why we have Border Patrol people who cannot speak Spanish. 
Increasingly we need to have at least one Arabic person on each 
post. You could be coming in with a package that says anthrax 
on it and we would not be able to interpret it.
    In my home town, by the way, it is not just--because we 
have a lot of refugees in addition to illegal immigrants, one 
of the main high schools in my city has 83 languages and 
dialects in it right now. I have the largest collection of 
Burmese refugees in America, I have 2,000 Bosnians that have 
come in. And the fire department does not know how to handle it 
when they go to some of these complexes, it is half Bosnian and 
half Burmese. The language problem is immense in a country of 
immigrants and these are mostly legal refugees. And clearly we 
have to have a law enforcement, fire department, court process 
to figure out how to deal with the languages because even, like 
you say, under any normal system, even if they are trying to 
learn English, and with the Internet and the TV and everything, 
it is going to take a while. And I just wondered what the legal 
system is doing in North Carolina to try to respond.
    Mr. Keith. As the DA, I ran an ad in the Charlotte paper 
and the Raleigh paper wanting a Spanish speaking prosecutor. I 
got zero replies. I go to teach at the National Advocacy 
Center, which is funded by the U.S. Justice Department, it is a 
week of my vacation. I go down there trying to hustle young 
people who will come up from Brownsville, TX to North Carolina. 
I buy dinner, buy drinks. So far I have not been successful. 
There is no premium in North Carolina to come here or to stay 
above the starting salary.
    Mr. Souder. Representative Folwell.
    Mr. Folwell. I will try to respond. I have numerous 
newspaper articles here where folks are being hired and paid a 
stipend of $2,000 or $3,000 more a year if they do speak two 
languages. That may be a good thing in the beginning, but it 
does set a level of double standard and unfairness amongst the 
other people who work in their department that do the exact 
same job and the reason they are getting paid less is they do 
not speak a language which is not the official language of our 
State. So it does--I see where you are going with your 
question, but in reality, it does create a lot of ill feelings 
between people who are working side-by-side doing the same job, 
one who understands fluently our English language and gets paid 
less than somebody else who does not. I think we are all to 
blame for this. There is enough blame to go around this room, 
this community and this State for this problem.
    I know that we have heard a lot of depressing statistics 
here today, but I am going to tell you, this country can 
achieve and accomplish and fix anything it sets its mind to. 
This is not going to be any different. We have to have clarity 
of thought and we have to have things in the right order. If we 
can get those things lined up with hard working folks like 
Congresswoman Foxx and yourself, we can fix this.
    Ms. Conrad-Shrader. Mr. Chairman, I think Representative 
Folwell touched slightly on this issue, I am not sure that 
there is a great incentive in the illegal immigration 
population to attempt to learn the English language. We are 
bearing a great deal of cost across the board in county 
services. Hardly a week goes by that the Board of County 
Commissioners does not receive a request to hire more 
interpreters. And I have heard anecdotally that even if they do 
know how to speak English, they prefer to disguise that fact 
because they feel it is to their advantage to continue to speak 
in their native language.
    Also, I would followup on Representative Folwell's recent 
comments, and respectfully, perhaps disagree with one of your 
assessments of the situation, in calling this complex. We have 
watched the actions of Congress over the last few weeks, that 
certainly does seem to be the struggle that Congress is facing 
and their general opinion. But I think if you listen to your 
constituents, and particularly those of the 5th District, this 
is what is causing the frustration among the legal, tax-paying 
citizens of this country and even the legal immigrants, is that 
they do not view this situation as complex. They see that we 
have a large mass immigration of people in this country that 
have violated Federal laws, do not seem to have respect for the 
laws of the United States and that not only do our borders need 
to be protected, but that these 12 million illegal immigrants 
needs to be deported from this country and re-enter legally, 
regardless of the number of years that they have lived in the 
United States, because certainly we cannot rely on any 
legitimate documentation or information to even assess that 
situation. And to allow them to re-enter, and their children, 
legally perhaps in controlled numbers because we certainly 
cannot absorb this mass of illegal immigration and what may 
follow in future years if you allow amnesty or even a guest 
worker program.
    That is what I am hearing from the citizens out there, is 
they do not understand why Congress is not acting more 
decisively, more quickly and more severely on this problem. And 
they do not see as that complex situation.
    Mr. Souder. Thank you. Mx. Foxx.
    Ms. Foxx. Well, thank you, Commissioner Conrad-Shrader, for 
saying some of what I feel too.
    We are talking about our backgrounds a little bit and I 
want to say my father's parents came to this country from 
Italy. He was the oldest of nine living children. He and all 
his brothers and sisters learned to speak English without the 
help of an English as a Second Language teacher, in probably 
classes of 45 or 50 kids with probably a lot of people who 
spoke Italian when they went to school, and other languages, 
because he was born in 1915 and was going to school when there 
were a lot of people coming here from other countries. So I 
know very well that it is possible to learn to speak English 
without the help of another language.
    There are so many things that you all said that I want to 
respond to. One thing is that Representative Folwell said this 
is the largest unfunded mandate ever, and I agree with you on 
that, because I think the Federal Government has simply not 
done its job in securing the borders. And as a colleague of 
mine pointed out the other day, and I want to read this to you 
because I think not many of us think about this from the 
Constitution, it is in Article 4, Section 4, ``The United 
States shall guarantee to every State in this union a 
republican form of government and shall protect each of them 
against invasion.''
    Now I think I agree with Commissioner Conrad-Shrader, I 
think the people of the 5th District and people all over this 
country think we are being invaded, and that the Federal 
Government is simply not doing its job to protect us from 
invasion. And so I think that is the first role of the Federal 
Government.
    I agree with Chairman Souder about the problem of raising 
taxes at the Federal level and trying to spend at the Federal 
level. I very much agree with him that whatever we can do needs 
to be done at the local level if at all possible. But it is 
wrong of the Federal Government to impose these costs on the 
local governments.
    The other thing I would say again about people who came 
here in years past, who came in the early 1900's. When folks 
came here before, they came through centers, they came to Ellis 
Island or other places where they had to show that they were 
healthy and that they would not be a burden. Even legal people 
who come here have to prove that they will not be a burden on 
our culture. And I think that we absolutely have to enforce 
that in our country and I think that is the job of the Federal 
Government, is to say you cannot be here in this country if you 
are going to be a burden on the taxpayers. That is how it used 
to be when people came here.
    The other thing related to Federal spending, as the 
chairman said, we are facing a crisis at the Federal Government 
level related to a term that I absolutely hate to use, but it 
is generally used by my colleagues--the term ``mandatory 
spending''--Social Security, Medicare, Medicaid. In the next 
few years, like by 2040 that will absorb 60 percent of all the 
spending at the Federal Government level. The No. 1 role of the 
Federal Government, again, is the defense of this Nation. We 
have to have money to defend the Nation. That cannot be done 
anywhere else. Forsyth County cannot do that, the State of 
North Carolina cannot do that. So we have to make sure that 
there is money there.
    And I, for one, am frustrated that the Congress has not 
dealt with this issue of how we are going to deal with spending 
the Federal Government has committed itself to, let alone these 
other things.
    And I guess a couple of other responses to comments that 
you all have made. Representative Folwell talked about the bill 
that we have in Congress now that says you cannot be a citizen 
unless at least one of your parents is here legally. I 
completely agree with that. I am a co-sponsor of that bill. We 
call it the Anchor Baby bill. I think that it is unconscionable 
that we allow people to become citizens when the act that got 
them there to start with was illegal.
    I guess that the other comment that I wanted to make was it 
is unfortunate that the State of North Carolina has not said 
back to the Federal Government, English is our official 
language, we have declared it so. Under the 10th amendment to 
the Constitution, it is our right to do that and we are simply 
not going to fund English as a Second Language. I believe that 
should be our national policy.
    And again, I agree with Representative Folwell, we are 
facing a looming problem in this country if we devalue our 
language and we devalue our currency. You brought up the issue 
of devaluing the language and the chairman has brought up the 
issue of devaluing the currency. I just do not think there is 
any greater issue--there are two great issues facing us right 
now--the threat to our national security coming from foreign 
countries and the threat to our entire way of life coming from 
this tide of illegal aliens who are coming here. So we may be 
destroyed from within before we are destroyed from without. And 
I think it is a very serious problem.
    I think the issues that you all have brought up--the gangs 
and their lawlessness. And part of that is I think again what 
my constituents say to me and what I feel myself, if we allow 
these people to come here illegally and there is no punishment 
for it but simply reward, then that just gives them the 
opportunity to say they will break any law. What does it mean 
that we are a Nation of laws if we allow the initial entry to 
this country to be as a result of an illegal act?
    So, you know, I am quite concerned about, again, most of 
the issues that you all have brought up. I referenced earlier 
the fact that we had this hearing yesterday in Caldwell County, 
not in my district obviously, but another member of our 
subcommittee, Representative McHenry, and one of the issues 
that came out of that meeting and out of that hearing was that 
many people think that they do not have to be concerned about 
the spread of methamphetamine because they themselves are not 
involved with it, their families are not involved with it. But 
the ripple effect of illegal drugs is enormous.
    And I think the ripple effect of illegal immigration and 
illegal aliens is much greater than many of our lawmakers 
understand. And I frankly wish that we could have had all of 
our leadership in Congress here listening to what you had to 
say, and maybe the President too, to understand the depth of 
the concerns and the breadth of the concerns for this issue, 
and again, what the ripple effect is for us.
    I had a lot of questions to ask, but I think most of them, 
particularly Mr. Keith, you answered in terms of talking about 
the impact and I think that Mr. Jordan--I cannot think of any 
other questions right now, Mr. Chairman, but I wanted to give 
that feedback to the people who have spoken.
    Mr. Souder. Thank you.
    Representative Folwell.
    Mr. Folwell. I just wanted to add, I brought up the idea of 
deportation, and I would just submit, Mr. Chairman, that if you 
give us an opportunity to do some kind of pilot program that 
would save the Federal taxpayer money, better utilize assets 
that either the local, State or Federal Government has already 
purchased, and share whatever we save, we give half back to you 
and we can reinvest half of it back into dealing with this 
problem on a bigger basis. If you give us that chance, we will 
come through for you.
    Mr. Souder. Well, let me make----
    Mr. Folwell. If I might just add.
    Mr. Souder. I thought you were done.
    Mr. Folwell. I'm sorry the ICE people are not here, because 
it is my understanding that when somebody is deported or 
arrested or whatever the terms are, there are a couple of paths 
they go down. One is that they are not considered to be a 
criminal risk, sometimes they are taken to Raleigh-Durham 
Airport and they are put on an airplane back to their country 
of origin. The other option is they may be taken to Charlotte 
and run through some kind of process down there. Then they are 
transported from Charlotte to Atlanta where they go before a 
deportation hearing officer. If they are determined to be 
deportable in Atlanta, they may be taken to Gadsden, AL, near 
Talladega, and in Gadsden, AL, they could be put on a plane 
with a lot of other deportees, flown to Brownsville, TX, taken 
off the plane in Brownsville, TX, put on a bus and taken across 
the street. We can make that process a whole lot more efficient 
by running airplanes out of Smith-Reynolds Airport, period. 
Have a deportation center, run airplanes, save money. We share 
the savings. We will take half of our savings and redeploy that 
back into other ways to save money in this process and we can 
come through for you, without any increased expenditure.
    Mr. Souder. Let me make a couple of comments and I had a 
few more questions.
    One on the Anchor Baby legislation, which I am also a co-
sponsor of. The questions may not seem complex, but they are 
complex, whether people think they are complex or not, quite 
frankly. In Anchor Baby, assuming you define it--as we have to 
deal with the question of is one parent a citizen by green 
card, refugee status. Some of what you are dealing with are not 
illegal immigrants, they are what we have done in the Central 
American countries--I was asking questions about El Salvadorans 
and Guatemalans--we have extended the refugee status all 
through the civil wars of the 1980's now and expanded them for 
political reasons and economic reasons of those countries. And 
the question is what about all these people who have come in 
under refugee status, not even refugee status from Burma where 
you have a military regime, but a refugee status where you have 
a democratically elected government in El Salvador and 
Guatemala, and people are still claiming economic refugee 
status, which roughly the entire world could claim under that 
criteria of being lower income than the United States.
    But assuming, taking away all those questions related to 
Anchor Baby, and this is assuming as long as they have some 
kind of status in the United States of one parent. I think--
this is an I think--we are going to bring this legislation up 
in the House. It is not clear whether we can pass this 
legislation in the House, but it will be close. I would not 
hold my breath for this legislation to pass the Senate, I would 
say it is somewhere between zero and half a percent in an 
optimistic forecast.
    But if it did pass the House and the Senate, everybody 
agrees that nobody knows how the court is going to rule. There 
is no precedent in American history, there is zero. We have had 
an extended internal discussion about this. Chairman 
Sensenbrenner, Lamar Smith are two advocates of this bill--
Lamar Smith is chairman of the key subcommittee and likely next 
chairman of the Judiciary if the Republicans maintain control--
agree that anybody who speculates how the court is going to 
rule is just speculating, because there is no precedent of this 
decision. It would seem, to those of us who are sponsoring this 
bill, that the founding fathers controlled the right of 
citizens for good or ill early on, including depriving women 
and Blacks of votes. So they seemed to have, in the 
Constitution, protected the rights of citizenship which would 
suggest to those of us who are strict constructionists that 
they would probably rule in favor of the Anchor Baby 
legislation, if there was in fact a ruling, assuming the 
Supreme Court Justices considered themselves strict 
constructionists, which a majority does not. And therefore, you 
would have to look at what sort of precedents there are.
    So the bottom line is I agree with that philosophy and I 
believe it is underneath much of what is happening particularly 
at the border communities where people try to get one foot 
across, try to deliver babies in the hospitals across the 
border and then they move internally in the United States. And 
if we cannot get control of that question, it puts pressure on 
anything that we try to deal with.
    A second thing is that there is incredible naivety about 
how hard it is to seal the border. I have spent a big 
percentage of my career working on border issues because it is 
narcotics. It would take over 200,000 soldiers, and we still 
could not seal the border. I am telling you, over 200,000, 
maybe half a million. We do not have them, we do not have them 
in the military. My Guard units are exhausted, my Reserve units 
are exhausted. My regular military people from my home area are 
doing second cycles. Terrorism around the world is not going to 
go down. We do not have the troops to seal the border.
    We cannot replace the Customs and Border Patrol agents. 
When we increase the dollars for them, we cannot fill the 
slots. The second they get an opportunity to go somewhere else, 
they do not want to sit there on the southwest border, they 
head out. It is a monumental dilemma that is going to take us 
some time.
    Now the question is we need both time and the will. Now a 
fence is part of that, a fence is not the end all. They cut the 
fence in San Diego, but at least it slows them down a little 
bit. That virtual fence which is really the only thing 
practical in the mountainous zones and in some of the open 
areas--a virtual fence where you are doing monitors and so on. 
They kick them out, they go over them, they figure out ways 
around them, but we still need to do it because it slows it 
down and gets some control.
    We need aerostats in the air to be able to track, we need 
more P-3s to be able to track, because they hop over with small 
airplanes if you do not do otherwise. But we have to have some 
sort of way to control immigration and the numbers who are 
moving back and forth. The figure 700,000 was in the initial 
testimony, but there is more than a million border crossings 
because so many people go back and forth. If we cannot get that 
back and forth worked through--right now, if you fly them to 
Brownsville and send them across, the penalty if they come 
right back across is nothing. In El Paso, it takes 17 times 
detained until they hold you overnight. That was 3 years ago. 
Now they are so overwhelmed with people heading to North 
Carolina and Indiana and elsewhere, they do not detain them at 
all unless they are an OTM, which is relatively new because of 
the terrorism question, or they have another criminal record.
    So what you are doing, at least at the start of this, is an 
important step. And that is by getting a criminal record, we 
are at least able to identify more of them as we get more 
sophisticated on the border. But even logging who has been here 
illegally in your system is going to give us a better 
monitoring system as we aggressively improve controls on the 
border, which we will do. The question from my perspective is 
will we do it fast enough.
    After we get the border relatively secure--I think it is an 
interesting concept that you raised on deportation and a 
deportation center. I think it is something that we should look 
at as we are looking at these different bills to look at 
whether this possibly would work as a center. Clearly our 
process is flawed. I support Charlie Norwood's bill that says 
State and locals ought to have the right to arrest illegals. My 
only statement is, look, all that said, your local police 
department could spend their full time arresting illegals and 
they are going to be back here in 6 months, maybe 6 days, maybe 
6 hours, depending on whether they get an airplane flight. 
Until we spend incredible millions and millions of dollars on 
computers, on monitoring things, we cannot get the border 
sealed. And so interior enforcement, while we can start the 
process, set up the process, get people trained, get the 
language trained, get people deputized, get them through the 
courses and that type of stuff, you cannot have interior 
enforcement until you have a secure border.
    And also until you get some sort of a--and this is the most 
controversial part--work permit, some kind of thing to handle 
the 12 million that are here, because not only will you not 
have a secure border, you cannot find them, the estimates are 
just incredible what that will take.
    Bottom line is we agree to that, that we need to get the 
border more secure and I believe you will see Congress move in 
that direction, hopefully move aggressively in that direction. 
But we will take at least baby steps.
    Second, we need to look at creative ways to start setting 
the infrastructure for managing those who are here illegally, 
because they need to somehow get into our system because no 
system is safe when you do not know who is here and how they 
are moving around, whether it is terrorism or crime.
    Third, and this is a more monumental question. You cannot 
even figure out--the health questions on people coming in, the 
screening, not making sure--how we deal with that. Partly the 
courts have really made the health question complicated, and 
the schooling question complicated and we need to try to plunge 
into the health and schooling question. And what is the Federal 
Government going to do to supplement the fact--even though I 
said the Federal Government does not have money--what is the 
Federal obligation to supplement the fact that we did not have 
the border sealed for the last decade?
    In the future, as the border gets sealed, as we get a 
workable work permit, immigration strategy with larger numbers 
of immigrants to reflect realistic modern labor shortages 
rather than 20 years ago immigration numbers, as that changes, 
then you are going to have obligations in how to deal with 
people who are coming in. But for the people who are here, 
clearly the Federal Government has some obligation.
    One of the most important local things and things that need 
to get set up--and I have asked this question a number of 
times. I know in my area, they started to tackle this, and that 
is as we move toward immigrant smugglers, the coyote networks, 
this is something where the local law enforcement needs to help 
us, because we are finding that it is much more fragmented than 
we thought at the Federal level. Starting with, No. 1, have you 
here taken down or searched or looked for who is making the 
fake green cards and IDs? Have you had any cases, because 
clearly people are manufacturing them in this area?
    Mr. Keith. We have had some employees of DMV that have been 
assisting people in getting driver's license. And from my 
perspective, I think DMV in years past has assisted by their 
completely slack attitude toward driver's licenses and now as 
these cards are being renewed, they are allowing the item 
number to be reused, which was used as a fake Social Security 
number 4 years ago when they got their license, but to be used 
again. I mean, DMV is certainly not on the law enforcement side 
even yet.
    Mr. Souder. So has North Carolina moved toward looking for 
a Social Security number match?
    Mr. Keith. Yes, but I mean, give me a name and I will bring 
you back a Social Security card tomorrow with your name on it.
    Mr. Souder. The question--and this is at the fundamental 
core of how we are going to get to deportation and managing 
work permits because the State and locals have to figure it 
out. I have one company in Fort Wayne, IN that makes 37 States' 
driver's licenses, and another company in Fort Wayne that does 
5 more, so the odds are North Carolina is there, I do not know 
for sure, but 42 of the 50 States. They said the security of 
those licenses are dictated by the States. They come in and 
make them as secure as you want.
    We have some initial indicators that watermarks are going 
to be the first step, to make sure that it is hard to 
duplicate. A second thing is we are looking for biometric 
indicators. They do Singapore as well, so they can do eye 
scans, they can do multiple fingerprints. We have to do more 
than one fingerprint, one fingerprint, they cut them off, 
literally in the drug and crime world--multiple fingerprints. 
This is a huge thing.
    I was just over in Pakistan and Iraq and so on, 
particularly Pakistan where terrorists are coming through, you 
need multiple fingerprints on IDs.
    But as we move through, the State agencies need to make 
more secure license systems that the local banks and so on need 
to be--how are we going to track drug money if people have fake 
IDs with fake numbers and the banks will not cooperate on 
making sure this goes. This is not just a Federal question, we 
need the States doing that. And as we move, most identity theft 
in America are people stealing my name with my number. One of 
my wife's best friends went to get a new credit card and four 
other people had stolen her number. Nobody was using her credit 
card, they stole her Social Security number. The largest group 
of radiologists in Fort Wayne, every single person has had 
their Social Security number and they are fighting off roughly 
once a month another group that has swapped and sold those 
Social Security numbers.
    Now at the Federal level, as we get a bank on the Social 
Security numbers, what we need to know is then that the local 
prosecutors, local officials are making strong laws to go after 
and figure out who is duplicating inside North Carolina. It is 
not something they are duplicating them over in Ohio and 
bringing them to North Carolina. And I know in my home 
district, three green card manufacturers were taken down in a 
period of 60 days. This is something that needs to be 
aggressively looked at and then tell us what mechanisms you do 
not have in enforcing that and where the Federal Government can 
help. But if the green card manufacturer, the stolen Social 
Security--as we get our computer system up better, then the 
question is how can we work better to identify and enforce 
this. Because without the basic identity information being 
correct, deportation is irrelevant, you cannot figure out 
whether they are a citizen or not.
    Mr. Keith. I hate to be negative, I am actually a very 
positive person outside of here. I am aware of one drunk driver 
through a friend of mine who is an alcohol counselor, and he 
will not reveal his name, but he is an illegal immigrant. I do 
not know his nationality, could be Polish or Scottish, he has 
five different licenses under five different names and he has 
five first offense drunk driving convictions.
    I have my North Carolina license which has all this coded 
stuff, biometrics on the back. DMV cannot read it. The only 
place that you can get this read is at an ABC store, so if I go 
in to get a fifth of liquor and I have Brandon's license with 
my picture on it, they will know that I do not have brown hair 
and I am not a female and I am not 5 feet, 6 inches. We cannot 
do that. Our officers, we have those MTDs that Mr. Jordan 
talked about in the card, but nobody in North Carolina can read 
this card. We could use a national driver's license in this 
bill to have all the biometrics put on there, that would really 
help. But right now, it does not take much ID to get a driver's 
license.
    Mr. Souder. Well, it does not do us any good to require the 
biometrics if nobody can read it. So is there any proposal at 
the State or local to be able to get the equipment so it can be 
read?
    Mr. Keith. Funding again would be that issue.
    Mr. Souder. Representative Folwell.
    Mr. Folwell. District Attorney Keith did used to have brown 
hair, I just wanted to say that, before he started dealing with 
these problems. [Laughter.]
    Two things. And I am a freshman member of the legislature, 
very glad to be there, it is a great place to serve. I think 
the DMV is taking steps on the driver's license issue. It seems 
that by a recent newspaper report, that the number of illegal 
immigrants applying for North Carolina driver's license has 
dropped dramatically. We literally, in our two driver's license 
locations in Forsyth County, used to have tent cities set up, 
literally, on Monday mornings. People would come down, camp 
out, out-of-State license plates on their cars, and they were 
running them through. One reason is that we were accepting 999-
99-9999 as a Social Security number for people to get driver's 
license.
    Second, to go back to a point you made about an hour and a 
half ago about can you pierce through and put someone in jail 
who knowingly provided bond for someone who was going to jump 
bail. We have actually, or I have actually been working with 
the Insurance Commissioner in North Carolina, not about 
driver's license, but about uninsured motorists where there may 
be some legislation introduced that has the same spirit of what 
you talked about a couple of hours ago, that would allow us to 
pierce through the veil of people who were selling fake DL-
123s, which is your notification that you have basic liability 
insurance on your car. If you sell somebody a fake DL-123 and 
they go out and become involved in an accident which cost 
victims of this State $83 million last year by the way and we 
have one of the lowest uninsured motorist pools in the United 
States, but legislation that would allow us to go back to the 
person who sold that driver the DL-123, and pierce through and 
actually garnish their assets also.
    I wanted to also add, and I normally do not comment on 
things I do not know a lot about, or at least try to. But it is 
my understanding, for example----
    Mr. Souder. That is just because you are a freshman.
    Mr. Folwell. OK. [Laughter.]
    And in case it does not get said here in the next few 
minutes, I just want to say how confident I am in your depth of 
knowledge about these issues. It really makes me more 
optimistic that folks like you would come down here and conduct 
a meeting like this. Of all the meetings I have ever been in, 
it is one of the most productive I have ever sat through, so I 
want to thank you for that in case it does not get said.
    But one thing I would like for you to look into is how it 
relates--it is my understanding that you can set up certain 
kinds of financial institutions that are federally chartered 
where you do not have to provide a Social Security number to 
open an account and the IRS does not have--for lack of a better 
word, Mr. Chairman--surveillance rights or powers into these 
financial banks or credit unions. That is something else that I 
think is going on in this State, that there are certain 
financial institutions that can be set up where you do not have 
to submit a Social Security number, where you can deposit money 
and the IRS has no broad powers to see who the depositors are 
or anything. So that is another part of this Social Security 
number equation.
    Mr. Souder. Well, thank you, we will look into--if there 
are any criminals present or hear or see that comment, they 
should know we sometimes have bigger eyes than they think. At 
the same time, there are those kind of chartered institutions 
that are harder to do without a tip, because they do not fall 
under normal regulations. And finances we are trying to close, 
Internet stuff we are trying to close, trying to get better 
tracking.
    And one of the things in the Department of Homeland 
Security--and we will follow this up with ICE, if you all have 
any additional input into this--in the narcotics area, we at 
the Federal Government have--and we are trying to set up and 
have started to set up in Homeland Security a similar thing 
like CTAC--is that what the program is, I believe--whether it 
is night vision goggles or different things for drug tracking. 
In Homeland Security, we are trying to set up a similar thing 
for local law enforcement. And I am convinced that identity is 
one of the critical things because everything else falls down 
if your identity problem falls down. And it may be that one of 
the things we need to get into Homeland Security is better 
readers. It does not do us any good to get the information if 
nobody can read the information or use the information. I think 
we are moving toward national standards. I think that some 
conservatives, including myself, who are concerned about the 
Book of Revelation do not want 666 to be on their forehead 
necessarily, but at the same time, we are moving toward some 
sort of a national ID and consistency in ID and you can see how 
without some of that type of thing, how crooks work. And I 
think we are moving in that direction, but we have to be able 
to read it and then--I am going to make this comment last and 
see if Congresswoman Foxx has any closing comments--that in the 
challenge here, that in addition to being able to read and do 
the ID questions, that the groups that are running the 
immigrants and providing for that usually have a local base, 
and we will start at the Federal level and work down, but just 
like narcotics, it is the local level working up.
    They are coming across in groups, they are getting in a 
van, they are going on the interstate, bringing the vans up. 
Who is leasing them the vans? Who are the companies that are--
is it a Budget rental type thing or do they have separate front 
groups that are doing the vans? Who is shopping these flyers 
down there saying there is a work site? Do we need enhanced 
penalties for the people who are running the numbers as opposed 
to just looking at each individual and say look, this is a big 
business. You cannot have--the numbers are increasing in North 
Carolina, looking at this like another type of illegal 
distribution network, what are the networks that are providing 
the transportation? What are the networks that are providing 
the job information? Who, when they come in, gives them the 
Social Security number and the green card? Should the coyotes, 
which we have in our legislation that was defeated, the coyotes 
are the people who do the running. We never had--in San Diego, 
the biggest border crossing, it would take then 12 months to 
get to trial and if they convicted the person, they had 6 
months suspension. So nobody was trying the coyotes. Clearly 
that is a law enforcement question. The question is in this 
State, first like we do in narcotics and like we talked about 
with gangs, you take out the leaders. And if we can get some of 
the leaders, then we can start to address the bigger question 
of what we are going to do with all the huge numbers of 
immigrants we are trying to deal with. But unless we have a 
structure--it is in effect walking into people's homes and 
picking them up for smoking pot as opposed to trying to get to 
the networks that are moving the whole thing.
    I just wanted to raise that point because that is clearly 
going to require, at the grassroots level, just like narcotics 
does, if the street cop does not pick them up, us having a 
Federal approach to it will not work.
    Congresswoman Foxx, do you have any closing comments or 
questions?
    Ms. Foxx. Well, I appreciate you talking about the 
possibility of our looking at a deportation center. I think 
that is a great idea and that we should look at that. I think 
looking at whether we need to put into Federal statutes the 
need to fingerprint everyone, I think that comment that 
District Attorney Keith brought up, and what to do about 
enhancing penalties for gang members, I think those are issues 
that we can look at and see if we have legislation that is out 
there that we could put those elements in, or if we can put in 
new legislation that would deal with that.
    But I want to thank the chairman for agreeing to come to 
bring this hearing here to Forsyth County to the 5th District. 
It has been very revealing to me. I have learned a lot today, I 
think he has. I hope that most of the people here have learned 
a lot. I hope that we will get some good coverage out of it so 
that the people who are not here today, but who will be 
listening and hearing about what happened will learn and that 
we can do more of this to again educate the public as to the 
ramifications of what we are talking about. I frankly think the 
general public in this district is very well aware of the 
problems. Our challenge is how do we get other people to 
understand those problems, and particularly those people who 
serve in the Senate, to understand that we have a need to do 
something about the problem that we are facing.
    But I thank all of you for coming today, and again I 
especially thank the chairman. I hope that he will come back 
again and visit. I know that he is a history buff and would 
want to spend some time at Old Salem and we will have him learn 
some more about the wonderful people who settled this area and 
spend some more time in the 5th District.
    I know how busy you are because I know how busy I am and so 
I am grateful to you for making the effort to be here and for 
the staff too and look forward to continuing to work with you 
on these issues.
    Mr. Souder. Thank you very much for having me here and 
hosting our hearing today. Thank you all for your testimony. As 
my friend, Congressman Shadegg says, ``History may not repeat 
itself, but often it rhymes.'' And that is what we look for is 
that there are different variations in different States but we 
are looking for the rhyming pattern, so at the Federal 
Government we can do the rhyming part and leave the local and 
State to figure out how their area is unique, and working 
together I think we can make progress on these difficult 
issues. I, like the State's attorney, am a generally optimistic 
person until I sit through these hearings and then whether it 
is child abuse or how we are going to pay for Social Security 
or terrorism in the world, you kind of get down like this and 
you go out in the real world and get balanced, because this is 
still the greatest country in the world. That is why everybody 
wants to come here. And we just need to make sure it stays 
great and we keep our identity. And part of the way you do that 
is through the hard work of each of you. I hope you will thank 
each of your departments. I know every police department, every 
attorney's office, everybody who works in the jail, probation 
officers, who are overwhelmed in most cities, are all 
overwhelmed and those who serve in public service, we thank you 
all on behalf of the U.S. Government for all your work here in 
North Carolina.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 30529.052

                                 <all>

</pre></body></html>
